<html>
<title> - FIELD HEARING: VA AND DOD COOPERATION TO PROVIDE HEALTH CARE TO OUR WOUNDED SOLDIERS RETURNING FROM IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 110-801]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-801

  FIELD HEARING: VA AND DOD COOPERATION TO PROVIDE HEALTH CARE TO OUR 
               WOUNDED SOLDIERS RETURNING FROM IRAQ AND 
                              AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 28, 2007

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate










                  U.S. GOVERNMENT PRINTING OFFICE
48-615                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2140  Mail: Stop IDCC, Washington, DC 20402-0001









                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Larry E. Craig, Idaho
Bernard Sanders, (I) Vermont         Kay Bailey Hutchison, Texas
Sherrod Brown, Ohio                  John Ensign, Nevada
Jim Webb, Virginia                   Lindsey O. Graham, South Carolina
Jon Tester, Montana                  Johnny Isakson, Georgia
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director
















                            C O N T E N T S



                              ----------                              

                            August 28, 2007
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     1
    Opening statement............................................     3

                               WITNESSES

Broun, Paul C., M.D., U.S. Representative from Georgia...........     1
Morrissey, Thomas M., Sergeant First Class, U.S. Army............     4
    Prepared statement...........................................     6
Capps, Jason, Specialist, U.S. Army..............................     8
    Prepared statement...........................................    10
Ott, Laurie, Director, CSRA Wounded Warrior Care Project, Augusta 
  VA Medical Center and the Active Duty Rehab Unit...............    15
Hollins, Dennis, M.D., Medical Director, Active Duty Rehab Unit, 
  Augusta VA Medical Center......................................    16
    Prepared statement...........................................    17
Schoomaker, Eric B., Major General, M.D., Commander, North 
  Atlantic Regional Medical Command and Walter Reed Army Medical 
  Center.........................................................    18
    Prepared statement...........................................    21
Bradshaw, Donald M., Brigadier General, Commander, Southeast 
  Regional Medical Command.......................................    24
    Prepared statement...........................................    25
Biro, Lawrence A., Network Director, VA Southeast Network........    31
    Prepared statement...........................................    33
Kilpatrick, Michael E., M.D., Deputy Director, Force Health 
  Protection and Readiness Programs, Department of Defense.......    34

                                APPENDIX

Copenhaver, Deke, Mayor, Augusta, Georgia; letter................    39
Rahn, Daniel W., President, Medical College of Georgia; prepared 
  statement......................................................    40

 
  FIELD HEARING: VA AND DOD COOPERATION TO PROVIDE HEALTH CARE TO OUR 
          WOUNDED SOLDIERS RETURNING FROM IRAQ AND AFGHANISTAN

                              ----------                              


                        TUESDAY, AUGUST 28, 2007

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in the 
Conference Room of the Active Duty Rehab Unit at the Augusta VA 
Medical Center, Augusta, Georgia. Hon. Johnny Isakson, Member 
of the Committee, presiding.

           WELCOME STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. I'd like to welcome everybody and to call 
this meeting to order of the Veterans' Affairs Committee of the 
U.S. Senate. I would like to thank everybody who is here today 
for this very important hearing on the great work that's being 
done here at the Augusta VA and Eisenhower Medical Center.
    Before I do anything, though, I want to introduce the 
recently newly-elected Congressman from this district, Dr. Paul 
Broun, to welcome everybody to his district. Paul.

         STATEMENT OF CONGRESSMAN PAUL C. BROUN, M.D., 
                U.S. REPRESENTATIVE FROM GEORGIA

    Dr. Broun. Senator Isakson and distinguished Members of the 
Committee, thank you for holding today's hearings here in 
Augusta. Senator Isakson, as you're well aware, Augusta has a 
tremendous story to tell regarding the treatment our men and 
women who have suffered injuries in service to our country. You 
have been a leader in working on this issue and I greatly 
appreciate your efforts. Men and women who serve our country in 
uniform come from all over America, but as my friend Laurie Ott 
of the Wounded Warriors project points out: approximately 70 
percent of those returning from Operation Iraqi Freedom and 
Operation Enduring Freedom come from the southeastern United 
States. Regrettably, some of these men and women return from 
their service with severe injuries. As a medical doctor I know 
patients recover more quickly when they're surrounded by family 
and those they love. So what can we do to treat more of our 
Nation's wounded warriors closer to home, especially at a time 
when our Nation's resources are stretched thin. Today's hearing 
will focus on a possible answer. As the Committee will learn, 
the Veterans Administration and Department of Defense have 
entered into a unique partnership in Augusta which allows them 
to share resources to treat soldiers. It is a successful 
program that can serve as a model for the Nation and it is my 
hope that other communities around the country will be able to 
learn from our local example.
    The program features collaboration between two assets of 
different Federal agencies: the Department of Defense Dwight D. 
Eisenhower Army Medical Center at Fort Gordon; and Augusta's 
Uptown VA. Each of these important medical centers deserves 
further description. The Army Medical Center is second only to 
Walter Reed, which is scheduled to close--second in the number 
of evacuees treated from Iraq and Afghanistan. From January 
2005 to March 2007 the President's Commission on Wounded 
Warrior Care found that the soldiers treated near home have 
better care and better outcomes, so I'm happy to welcome you. 
I'm happy to serve as the Congressman of the 10th Congressional 
District and I'm excited about this project. I'm excited that 
Senator Isakson has brought this hearing here to the VA 
hospital, because I think we have a wonderful opportunity to 
show the Nation how well we can treat our wounded warriors and 
how two different departments--and maybe with the Medical 
College of Georgia, with its burn center--that we can even grow 
our facilities and grow our efforts to treat our brave men and 
women in the military. So, thank you, Senator Isakson, for your 
work. I thank you for the opportunity to be here and welcome 
you to Augusta and the VA hospital. Thank you.
    Senator Isakson. Thank you very much, Congressman Broun. 
Congratulations on your election. [Applause.]
    I want to introduce some very special people but I want it 
to be known, first and foremost, that the very special people 
that are here today are all our men and women in the U.S. Armed 
Services. We have a lot of folks here today and I want to tell 
you, on behalf of not just myself, but the people of the State 
of Georgia and the people of the United States of America, God 
bless you for your service and your sacrifice. [Applause.]
    And running a close second is the first lady of Augusta, 
Georgia, Gloria Norwood. Where is Gloria? Stand up Gloria. 
[Applause.]
    Don't sit down. I'm going to brag just a second. This lady 
is the beautiful wife of the late Charlie Norwood, Congressman 
for seven terms from this district. I called him Dr. Feelgood. 
He was never short for an opinion and he was never in doubt, 
and he did more for health care in the U.S. Congress while he 
was there than any other member of the Congress. He became a 
great friend of mine. Every time I was having a bad day I tried 
to find Charlie and I always ended up with a smile, mainly 
because he married so far over his head. Gloria, we're glad to 
have you here. [Applause.]
    I want to introduce Tom Cook. Where is Tom? Tom, would you 
stand. Tom is the assistant to Pete Wheeler who is the 
Commissioner of Veterans Affairs for the State of Georgia and 
has been for 58 years. He is the longest-serving commissioner 
in the history of the United States of America in any State. I 
called him because I wanted him here today so I could brag 
about him to his face. I've been in government a long time, but 
I'm just a baby compared to Pete. But Pete said he had to be in 
Reno, I think, today because the President had him come out 
there for the American Legion, so we will give him an excuse to 
go see the President. But thank you, Tom, for being here, very 
much.
    Mr. Cook. Thank you, sir.
    Senator Isakson. Thanks for what you all do. [Applause.]
    This district was represented for 16 years in Congress by a 
truly great Georgian and a great friend of mine, Congressman 
Doug Barnard. Doug, would you stand up.
    Mr. Barnard. Thank you.
    Senator Isakson. Doug got my attention, I guess, over a 
year ago to make sure I understood what you all were doing in 
Augusta and what was being done specifically at this center. 
And he's the reason I got to meet General Schoomaker, got to 
find out what was going on as a model and example to all the 
Veteran's and DOD officers around the county. And, Doug, I want 
to thank you for the leadership you've demonstrated in this 
community in so many ways, but in particular, in taking care of 
our wounded warriors and finding a new and a better way to have 
seamless transition from DOD to VA. Congratulations to you.
    From the Committee Chairman, Danny Akaka--his staff member 
representing him is Ted Pusey. Where is Ted? Ted, stand up 
right back there. And John Towers from Senator Craig's staff is 
right back there. Thank you for all the work that you did in 
making today possible.
    From the Augusta area there are two distinguished members 
of the Georgia House of Representatives, Representative Barbara 
Sims--where are you, Barbara? Stand up; you're too pretty to 
sit down. And the Majority Whip of the Georgia House of 
Representatives, Barry Fleming. Where is Barry? Welcome and 
thank you all for coming. [Applause.]
    I am delighted to be here personally for this hearing. I am 
going to give an opening statement and then we're going to turn 
it over to the real heroes who will be testifying in three 
panels. The way we're going to do those three panels is we'll 
have each one make their testimony, and I would ask the 
panelists to try and keep it within 5 minutes. But the first 
two guys are exempt. The generals, I'm going to hold them 
tight. These two guys sitting at the table up here, I'm going 
to give them a liberal license. If the red light goes off, 
wherever it is--where's the red light? Back there. If you see 
the red light you two don't have to pay any attention to it, 
but the generals are going to have to pay close attention.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    We're going to have three panels to discuss what's happened 
here at the Uptown Augusta Medical Center and the seamless 
handoff between the Department of Defense and the Department of 
Veterans Affair.
    This medical center operates an active duty rehab unit 
which is the Nation's only medical rehabilitation unit within 
the VA system for active duty military personnel. It is my 
sincere hope, General Schoomaker, in years to come the word 
``only'' will be deleted from that statement and what's been 
done here can be replicated in other areas of the United States 
for our soldiers.
    The Augusta VA Medical Center was awarded the Olin Teague 
award by Secretary Nicholson in 2005 for successful partnership 
with the military and VA in regards to the active duty rehab 
unit. Major General Schoomaker, who is a witness today and is 
doing a wonderful job at Walter Reed Hospital in Washington, 
DC, was instrumental in the creation of the active duty rehab 
unit when he was commander of the Eisenhower Medical Center at 
Fort Gordon. As I cited earlier, Pete Wheeler, who cannot be 
here today, was also instrumental in being a catalyst for what 
happened here to actually take place and become a reality. The 
active duty unit has revealed how the collaboration and 
coordination of this idea--a seamless transfer--can benefit 
wounded veterans who come back from Operations Iraqi Freedom 
and Enduring Freedom.
    As of August 2007, 1,037 active duty personnel have been 
treated at this facility: more than 490 of them as inpatients; 
and 26 percent have returned to active duty in the U.S. Armed 
Forces. Since August 24, 2004, on average on any given day 25 
to 30 active duty personnel will be here at this center in 
rehab and 24 of the 30 beds are filled with active duty 
personnel today. So, it is a pleasure for me to be here today 
and illuminate what has been done here in Augusta.
    I'd like to introduce our first panel. We have Sergeant 
First Class Thomas Morrissey and Specialist Jason Capps. I want 
to tell you just a little bit about them. Sergeant First Class 
Morrissey has served the U.S. military for 30 years, the last 
13 of them in the Illinois National Guard. In 2006, on his 
third combat tour in Afghanistan, he received eight direct hits 
from an AK-47 in all four extremities and his upper chest area. 
Specialist Jason Capps, who is also here to testify today, from 
1990 to 1993 served in the Marines in the intelligence field, 
and was deployed overseas during Desert Storm. In September 
2006 he joined the Army as a combat medic. In May 2007 
Specialist Capps was again deployed to Iraq with the Third ID--
deployed out of Georgia I might add. Specialist Capps was 
injured on June 10, 2007, when an Iraqi suicide bomber drove a 
civilian vehicle packed with explosives and detonated it under 
the bridge where his staff was on guard. I want to tell both of 
you gentleman before I introduce you, thank you for your 
service to your country and God bless you for all you've done 
for all of us in this State and this Nation. [Applause.]
    Sergeant Morrissey.

               STATEMENT OF THOMAS M. MORRISSEY, 
                SERGEANT FIRST CLASS, U.S. ARMY

    Sergeant Morrissey. Good morning, Chairman Isakson and 
distinguished guests. As the Senator said, I've served over 30 
years in the military and he's told you a little bit about my 
story. I'm able to speak to you here today because of the 
superior leadership, training, equipment and medical care that 
I received from the U.S. military. It starts with my team 
commander who insisted on extensive medical training and 
rehearsals ad nauseam before each of my deployments. This 
insured that at the time I was shot I reacted without thinking 
in those critical moments right after the event happened. 
Medical personnel from an American forward operating base had 
responded to my call for assistance. I was in the air on a 
medical evacuation flight within 45 minutes after the shooting 
and into my first surgery within 2 hours. I awoke in the 
recovery room the next day and my first thought was of my 
family. They had been contacted shortly after I was shot and I 
was able to speak to them by phone. I owe my battalion 
commander many thanks for personally keeping my family advised 
of my status. The next day I left Afghanistan and headed for 
Germany where I remained for 5 days and two additional 
surgeries. Nine days after receiving my wounds I arrived at 
Eisenhower and I was reunited with my family in the ER where we 
were all briefed on what we could expect. The next morning I 
began the process of having both my arms rebuilt, literally. My 
right humerus had been shattered from one of the shots and they 
had to use a cadaver bone to implant and rebuild it. My left 
forearm, both bones--my ulna and radius--were fractured so 
there were many pins, bolts and plates that were put in there. 
The nerves in both arms were damaged or traumatized, luckily 
not severed, and so my arms were virtually useless for about 2 
to 3 months. Both of my legs had extensive soft tissue damage, 
but no fractured bones.
    Every morning a procession of doctors would start their 
rotation through my room at 0600 hours. I was completely 
dependent on the nursing staff for all activities of my daily 
life. This humbles a person even more than the initial 
realization that the simple things we take for granted I could 
no longer do. This went on for many months. My wife who is a 
social worker in a civilian hospital, was amazed at the support 
and care that I was receiving.
    It took 2\1/2\ months of surgeries and general 
rehabilitation before I was ambulatory and able to exit my bed. 
During that time secondary complications added to the 
difficulty of my physical and occupational therapies. At the 
end of August 2006 I moved to the Veterans Affairs active duty 
rehabilitation unit to further my progress. Prior to leaving 
Eisenhower I met the head doctor and physician's assistant from 
the VA rehab unit. They briefed me on the facility, staff and 
the uniqueness of the unit I was about to become a part of. I 
quickly realized the unit was staffed at all levels by capable 
professionals filled with compassion for all injured soldiers. 
My inpatient status at the VA lasted 10 months. During that 
time I reported back to Eisenhower for regular doctor reviews 
and follow-up surgeries, but my day-to-day needs were very 
effectively taken care of by the VA.
    I moved back to Fort Gordon in July 2007 and continued my 
rehabilitation here at the VA as an outpatient. To date, I have 
received 16 surgeries and have at least two more planned. I'm 
able to perform all basic ADLs, but I still have my 
limitations. Every day is a new challenge and a new 
opportunity.
    No process or program is perfect and improvements can 
always be made. Some part of my personal success is the fact 
that I'm a senior NCO and I know my way around the military 
structure. The areas I believe which need to be refined and 
better integrated for the benefit of all injured soldiers are 
as follows.
    Case management: it appears to me that most injured 
soldiers are in their late teens or early 20's and they have 
not been in the military very long. Even though some may be 
seasoned early by their experiences, they really don't know how 
to get around a bureaucracy. Their families are under emotional 
stress. The individual is both physically and emotionally 
traumatized. The issue is continuity. In my own case I've dealt 
with seven different case managers in the past year, both 
civilian and military.
    Financial entitlements: there has been a rush to establish 
an upgrade in various entitlements for injured soldiers. Some 
are specific to veterans who have served in theater and others 
are applicable to all soldiers regardless of where injured. The 
problem is no one individual appears to be responsible for 
advising the soldier of the entitlements or where to find them. 
A simple checklist and official briefing on all potential 
entitlements may be a simple answer, but the responsibility to 
manage the ongoing change needs to be assigned somewhere.
    Family visitation: when I first arrived at Eisenhower I was 
told that while I was in the hospital two to three family 
members would be covered on official Army orders. The orders 
were intended to cover their lodging and per diem while I was 
in the hospital. However, once I moved to the VA this 
entitlement stopped. There appears to be some inconsistency in 
the policy, because I did find in casual conversation that 
people who complained actually received more support to have 
their families with them. While this was really no concern to 
me, I'm concerned for the young soldiers who may be the sole 
income producers for their families and don't have other 
opportunities. Family participation in the recovery of the 
soldier is critical.
    The health care I received from the U.S. Army and the 
Veterans Affairs has been exceptional. My family and I have 
been treated with respect and compassion always. I'm amazed at 
the capabilities I've recovered in such a short time. I will be 
forever grateful. In my opinion, this unique partnership should 
be expanded anywhere complementary facilities exist. This is to 
ensure the largest number of injured soldiers return to their 
maximum potential. Thank you.
    Prepared Statement of Sergeant First Class Thomas M. Morrissey, 
                    Illinois National Guard Soldier
    Good morning Chairman Isakson and Members of the Committee: My name 
is Sergeant First Class Thomas M. Morrissey. Thank you for extending me 
the invitation to speak before you today. I've served in uniform for 
over 30 years. For the last 13 years, I've been a member of the 
Illinois National Guard and I'm proud to be a citizen/soldier in 
service to his country during a time of national need.
    In June 2006, I was on my 3rd combat tour in Afghanistan when I was 
caught in an enemy ambush. As a result, I received 8 direct hits from 
an AK-47 in all 4 extremities and my upper pectoral area. I'm able to 
speak to you today because of the superior leadership, training, 
equipment and medical care provided to me by the U.S. Army. It starts 
with my team commander who insisted on extensive medical training and 
rehearsals during our pre-deployment train-up. It was due to his 
leadership and emphasis on training that I reacted without having to 
think in the seconds after being shot.
    Medical personnel from an American forward operating base (FOB) 
quickly responded to my call for assistance. I was in the air on a 
medical evacuation flight 45 minutes after the ambush and into my first 
surgery within 2 hours. I awoke in the recovery room the next day and 
my first thought was about my family. They had been contacted shortly 
after I was injured and were at home when I called to speak to them. I 
owe my Battalion Commander many thanks for personally keeping them 
advised on my status. The next day I left Afghanistan for Germany where 
I remained for 5 days and 2 additional surgeries.
    Nine days after receiving my wounds, I arrived at Eisenhower Army 
Medical Center (EAMC), Fort Gordon, GA. I was reunited with my family 
in the emergency room where the medical staff gave us a joint briefing 
on what to expect. The next morning I began the process of having both 
my arms rebuilt. My right humerus bone had been shattered and a cadaver 
bone was implanted as part of the repair. In my left forearm, both my 
ulna and radius bones were fractured. The nerves in both arms were 
traumatized so I could not use the arms to do anything. Both of my legs 
had extensive soft tissue damage, but no fractured bones.
    Every morning, a procession of doctors would start their rotation 
through my room at 0600 hours. I was completely dependent on the 
nursing staff to assist me in all activities of daily life (ADL). This 
humbles a person even more than the initial realization that one cannot 
do the simple things we all take for granted. This went on for months. 
My wife, who is a social worker in a civilian hospital, was amazed at 
the attention and support I was receiving.
    It took 2\1/2\ months of surgeries and general rehabilitation 
before I was ambulatory and could exit my bed. During that time, 
secondary complications added to the difficulty of my physical and 
occupational therapies. Lymphodema, heterotrophic ossification, muscle 
atrophy, a gangrenous gall bladder, multiple infections caused by the 
hospital environment and even tinnitus made it difficult to establish a 
regular, effective rehabilitation regimen.
    At the end of August 2006, I moved to the Veterans Affairs (VA) 
Active Duty Rehabilitation Unit to further my progress. Prior to 
leaving EAMC, I met the head doctor and physician's assistant from the 
VA rehab unit. They briefed me on the facility, staff and the 
uniqueness of the unit I was about to become a part of. I quickly 
realized the unit is staffed at all levels by professionals filled with 
compassion for all injured soldiers.
    My inpatient status at the VA lasted 10 months. During that time, I 
reported back to EAMC for regular doctor reviews and follow-on 
surgeries, but my day-to-day needs were very efficiently served at the 
VA. I moved back to Ft. Gordon in July 2007 and continue my 
rehabilitation as an outpatient at the VA. To date I've received 16 
surgeries and have at least 2 more planned. I'm able to perform all 
basic ADLs, but I still have my limitations. Everyday is a new 
challenge and an opportunity.
    No process or program is perfect and improvements can always be 
made. Some part of my personal success is the fact I'm a senior NCO who 
knows how to make his way around the structure of the military. The 
areas I believe which need to be refined and better integrated for the 
benefit of all soldiers are as follows:

    1) Case Management--It appears most injured soldiers are in their 
late teens or early twenties and have not been in the military very 
long. Some may be seasoned early by their exposure to a war zone, but 
most do not yet know how to deal effectively with a bureaucracy. This 
is especially true when they and their families are under physical and 
emotional stress. The case manager is expected to help the people 
assigned to them with the everyday management of their health care 
program. The issue is continuity. In my own case I've dealt with 7 
different case managers in the past year, both civilian and military. 
Based on their individual training, experience and personality their 
effectiveness in helping or hurting a soldier varies.
    2) Financial Entitlements--There has been a rush to establish and 
upgrade various entitlements for injured soldiers. Some are specific to 
veterans injured in theater and others are applicable to all soldiers 
regardless of how and where injured. The problem is no one individual 
appears to be responsible for advising the soldier of the entitlements, 
or where/how to get them A simple checklist and official briefing on 
all the potential entitlements maybe the simple answer, but the 
responsibility to deal with the on-going changes needs to be assigned 
somewhere.
    3) Family Visitation--When I first arrived at EAMC, I was told that 
while I was in the hospital two family members would remain on official 
Army orders. The orders were intended to cover reimbursement on lodging 
and per diem when the family members were visiting me in Augusta, GA. 
Once I moved to the VA, I was told the family orders were no longer 
valid. This seems to be an inconsistent policy. In casual conversation 
with other soldiers I found those who complained received extended 
compensation for their family members. My concern is not for myself, 
but the junior enlisted who maybe the sole income producing member of a 
family. Family participation in the recovery of the soldier is critical 
and should be supported.

    The health care I've received from the U.S. Army and the Veterans 
Affairs has been exceptional. My family has been treated with respect 
and compassion always. I'm amazed at the capabilities I've recovered 
due to the joint effort of my doctors, therapists and nurses. I will be 
forever grateful. In my opinion, this unique partnership should be 
expanded anywhere complementary facilities exist to insure the largest 
number of injured soldiers recover their maximum potential.

    Senator Isakson. Thank you, Sergeant. [Applause.]
    Specialist Capps.

        STATEMENT OF JASON CAPPS, SPECIALIST, U.S. ARMY

    Specialist Capps. Good morning, Senator Isakson and Members 
of the Committee. My name is Specialist Jason Capps. As the 
Chairman said, I was in the U.S. Marine Corps in the 
intelligence field and was deployed during Desert Storm. I 
rejoined the service back in September 2006 as a member of the 
U.S. Army as a combat medic. Never did I question whether or 
not I made the right decision to join the Army because I 
believe in the war efforts we have in Iraq. In May I was again 
deployed in Iraq with the 3rd Infantry Division, 269 Armor. My 
unit had already been deployed, so I had to play a little catch 
up and met with them at FOB Kalsu. I was thrilled that I'd been 
put with some of the best soldiers the Army had to offer.
    We had three general duties that we performed. The majority 

of the time we were the QRF unit that was deployed if a convoy 
took a hit from an IED, or if another U.N. convoy needed our 
assistance. We also performed other daily missions as well. For 
3 days of each week we rotated guard on two different posts: 
Checkpoint 20 and 21.
    It was on Checkpoint 20 where I received life-changing 
injuries. On June 10, an Iraqi suicide bomber drove a civilian 
vehicle packed with explosives equivalent to a 4,000-pound bomb 
under our bridge and detonated the device. The bridge, along 
with our squad, fell to the ground. Fortunately, our troops 
that were on the other side of the bridge were not injured. Out 
of the ten soldiers that were on our side of the bridge, three 
soldiers were killed and six of the remaining soldiers were 
injured, including myself. Luckily for us, one of our 
lieutenants was on Checkpoint 21 and was outside at the time of 
the explosion. He saw the explosion, radioed our location and 
got no response, and at that time he called the QRF unit back 
on FOB Kalsu. He jumped into a vehicle and came to our aid 
within minutes; and also luckily for us, there was a U.S. 
convoy coming through at that time who stopped and rendered aid 
to us.
    The U.N. personnel along with our lieutenants secured the 
areas and radio command our nine-line Medevac. Within 20 
minutes I was on a Black Hawk helicopter headed for Baghdad. As 
a result of the blast I received two spinal fractures, six 
pelvic fractures and multiple facial lacerations, which 
basically confined me to a gurney for the next week while in 
transition back to the U.S.
    The medical personnel I came in contact with from Baghdad 
to Landstuhl, Germany, were very compassionate and professional 
in all treatment needs. They also made sure that I stayed in 
contact with my wife and family at all times. I called my wife 
immediately to inform her in case she had happened to be seeing 
anything on the news. I didn't want it to be alarming to her. 
My wife relayed the information to my brother and sister as 
soon as I got off the phone with her at 0300 Monday morning. My 
mother was reading an article that morning in the paper about a 
bridge collapse and thought I might have been in the area and 
was concerned. My brother informed her that I was in the blast 
and that I was stable. My doctors and nurses made sure that I 
made contact with my mother and family at all times for their 
peace of mind. I will never forget their attention to detail.
    I was originally sent back to Martin Army Hospital at Fort 
Benning. After consulting with the physicians we determined 
that the active duty rehab facility would be the best place for 
me to rehab. My wife, Darla, actually works at a VA hospital in 
Oklahoma in the prosthetics department. I was asked if I would 
like to do my rehab in my hometown. I telephoned my wife and 
her immediate response was no. Her reasoning was this: the 
rehab I would receive in Oklahoma would be based on an older 
generation and not the aggressive rehab that I needed. Our 
decision was made to do the rehab in Augusta because of the 
information we received of the top notch care and resources 
that were available. Our decision was correct.
    I never expected the care and compassion that I received 
from day one at the active duty department. My daily life now 
comprises physical and mental rehab. My in-house doctor and 
therapists are always asking me how I'm doing. My problems are 
dealt with immediately instead of later. I feel if I'm going 
through something they are sincerely concerned with my issue.
    I have mentioned mental rehab. Our recreational therapist, 
Dave James, works to no end to make sure that we have 
recreational events every week. He does this with the help of 
the community and other nonprofit organizations such as the 
Reynolds Plantation that wanted to help in our rehabilitation. 
He sacrifices his own time that he could be spending with his 
family for the soldiers of this unit. There are no words that 
can express my gratitude to him.
    The nursing staff is led by Jeff Beard and it's one of the 
most caring groups of people I've ever come in contact with. 
Without these professionals this unit would not be a success 
story. If it were up to me there would be a unit like this in 
every region of the country. I believe that I would still be in 
a wheelchair at this time--at least for another 2 or 3 months--
if it wasn't for these people. To the employees of the active 
duty rehab unit I say thank you.
    We now have a platoon sergeant and a squad leader who acts 
as our liaison between the VA and the Army to make our lives 
less stressful and help us with our individual concerns. This 
will, in turn, take a partial load off Master Sergeant Stewart 
who has been working so diligently to take care of our needs. 
They can now work together to achieve the goals that are set in 
front of us.
    We do have a few issues that need to be addressed to try to 
maximize our mission. There are a number of entitlements that 
most soldiers do not know about. We could use specialists in 
that area who can explain them thoroughly to each soldier that 
comes to the unit. Soldiers, including myself, are having a 
hard time receiving our personal belongings from theater 
locations. We are being told that our belongings are in transit 
but cannot be traced.
    Third, it would be more efficient for us to be able to 
receive treatment from the doctors who specialize in each 
individual's needs here at the VA Medical Center instead of 
being transported to the Eisenhower Medical Center for each 
appointment. We are having a tough time even being seen on base 
because of the number of soldiers that are walking through 
their doors on a daily basis. There are other small things that 
are troublesome but everyone from doctors to military are 
trying to eradicate the situation.
    From the time I was transferred here there have been a 
number of groups and organizations that have come to my aid. 
Operation Homefront, Operation First Response and the Reynolds 
Plantation are only a few of the organizations that have helped 
me since I've been back. Airplane tickets for my family, rental 
cars, clothing are only a few of the things that have helped--
they have helped me with.
    Two weeks ago I was invited to attend a trip to Washington, 
DC, to view different sights, the Pentagon, the Capitol 
Building, Arlington Cemetery and all the different war 
memorials. The part that hurt me the most was going to 
Arlington Cemetery and seeing the graves of the soldiers--
excuse me. It made me sad knowing that many more soldiers would 
be buried there before it's over. Hopefully, none of these 
soldiers perished because of a lack of care. As for me, my 
government has done its very best to make sure that I have a 
full recovery. Every soldier deserves the right to heal with 
the very best resources we have to offer. Thank you. 
[Applause.]
        Prepared Statement of Specialist Jason Capps, U.S. Army
    Good morning Chairman Isakson and Members of the Committee. My name 
is Specialist Jason Capps. I appreciate the opportunity to share my 
story with you today. From 1990 to 1993, I served as a United States 
Marine in the Intelligence field and was deployed overseas during 
Desert Storm. In September 2006, I joined the U.S. Army as a Combat 
Medic to again serve my country in its time of need. Never did I 
question whether or not I made the right decision to join the Army 
because I believed in what we are doing for Iraq.
    In May 2007, I was again deployed to Iraq with the 3rd infantry 
Division, 2-69 Armor. My unit had already been deployed in March so I 
had to catch up to them at FOB (Forward Operating Base) Kalsu. I was 
thrilled that I had been put with some of the best soldiers the Army 
has to offer. We had three (3) general duties we performed. For the 
majority of the time, we were the QRF unit (Quick Reaction Force) that 
was deployed if a convoy took a hit from an IED or any other United 
Nations Force that needed our assistance. We also preformed other daily 
missions as well. For three (3) days of each week, we rotated guard on 
two (2) different bridges (checkpoint 20 and 21). It was on checkpoint 
20 where I received life changing injuries.
    On June 10, an Iraqi suicide bomber drove a civilian vehicle packed 
with explosives, equivalent of a 4,000 lb. bomb, under our bridge and 
detonated the device. The bridge along with our squad fell to the 
ground. Fortunately, our troops that were on the other side of the 
bridge escaped without any injuries. Out of the ten soldiers that were 
on our side of the bridge, three soldiers were killed and six of the 
remaining were injured, including me. Luckily for us, one of our 
lieutenants was on checkpoint 21 (approximately one mile away) and 
witnessed the explosion and immediately radioed our location and 
received no response. At this time, he radioed the Quick Reaction Force 
on FOB Kalsu and jumped into a vehicle and came to our aid within 
minutes. We were also blessed to have a U.N. convoy at our site within 
minutes. Our lieutenant along with the U.N. personnel secured the scene 
and radioed to command the 9-line medevac report. Within 20 minutes, I 
was on a Black Hawk helicopter heading for Baghdad.
    As a result of the blast, I received two (2) spinal fractures, six 
(6) pelvic fractures and multiple facial lacerations which basically 
confined me to a hospital gurney for the next week while I was being 
transferred back to the United States. The medical personnel I came 
into contact with from Baghdad and Landstuhl, Germany were very 
compassionate and professional in all of my treatment needs. They also 
made sure that I stayed in contact with my wife and family everyday to 
reassure them of my health and well-being. As soon as I arrived in 
Baghdad, they insisted that I call my wife immediately to inform her in 
case she happened to see something in the news and become alarmed. My 
wife relayed the information to my brother and sister as soon I got off 
the phone with her at 0300 Monday morning. My mother was reading an 
article in the morning paper about the bridge blast and thought I might 
have been in that area and was concerned. My brother informed her that 
I was in the blast, but I was stable. By the doctors and nurses making 
sure that I made contact gave my mother and family peace of mind. I 
will never forget their attention to detail.
    I was originally sent back to Martin Army hospital at Ft. Benning. 
After consulting with the physicians, we determined that the active 
duty rehab facility would be the best place for me to rehab. My wife 
Darla actually works at a VA hospital in Oklahoma in the prosthetics 
department. I was asked if I would like to do my rehab in my home town. 
I telephoned my wife and her response was ``NO.'' Her reasoning was 
this. The rehab I would receive in Oklahoma would be based on an older 
generation and not the aggressive rehab that I needed. Our decision was 
made to do my rehab in Augusta because of the information that we 
received of the top notch care and resources that were available. Our 
decision was correct. I never expected the care and compassion that I 
received from day one at the active duty department.
    My daily life now is comprised of physical and mental rehab. My in-
house doctor and therapist are always asking me how I'm doing. My 
problems are dealt with immediately instead of later. I feel that if 
I'm going through something, there are sincerely concerned with my 
issue. I had mentioned mental rehab. Our recreational therapist, Dave 
James, works to no end to make sure that we have recreational events 
every week. He does this with the help of the community and other non-
profit organizations such as the Reynolds Plantation that want to help 
in our rehabilitation. He sacrifices his own time that he could be 
spending with family for the soldiers of our unit. There are no words 
that could express my gratitude to him. The nursing staff is lead by 
Jeff Beard and is the most caring group of individuals I've ever 
witnessed in any hospital environment. I can actually say that we are 
for the most part a big family including doctors, therapists, nurses 
and patients. Without these professionals, this unit would not be a 
success story. If it were up to me, there would be a unit like this in 
every region of the United States. As of Monday, August 20, I no longer 
require the use of a wheelchair. I believe that I would still be in a 
wheelchair for at least other two or three months if I would have gone 
anywhere else. To the employees of the Active Duty Rehab Unit I say 
``Thank you.''
    We now have a platoon sergeant and squad leader who act as our 
liaison between the VA and the Army to make our lives less stressful 
and help us with our individual concerns. This will in turn take 
partial load off Master Sergeant Stewart who has been working so 
diligently to take care of our needs. They can now work together to 
achieve the goals that are set in front of us. We do have a few issues 
that need to be addressed to try and maximize our mission:

    <bullet> There are a number of entitlements that most soldiers do 
not know about. We could use a specialist in that area who can explain 
them thoroughly to each soldier that comes to the unit.
    <bullet> Soldiers, including myself, are having a hard time 
receiving our personal belongings from theater locations. We are being 
told that our belongings are in transit but cannot be traced.
    <bullet> It would be more efficient for us to be able to receive 
treatment from the doctors who specialize in each individual's needs 
here at the VA Medical Center instead of being transported to the 
Eisenhower Medical center for each appointment. We are having a tough 
time even being seen on base because of the number of soldiers that go 
through their doors on a daily basis.

    There are other small things that are troublesome but everyone from 
doctors to military is trying to eradicate this situation. From the 
time I was transferred here, there have been a number of groups and 
organizations that have come to my aid. Operation Home front, Operation 
First Response and the Reynolds Plantation are only a few of the 
organizations that have helped me since I've been back. Airplane 
tickets for family, rental cars, hotel rooms and clothing are only a 
few things that they have helped me with.
    Two weeks ago, I was invited to attend a trip to Washington, DC, to 
view different sites like the Pentagon, Capitol building, Arlington 
Cemetery and all of the different war memorials. The part that hurt me 
the most was going to the Arlington Cemetery and seeing the graves of 
the soldiers that were lost in Iraq. What made me sad was imagining how 
many more soldiers will be buried there before it's over. Hopefully, 
none of these soldiers perished because of lack of care. As for me, my 
government has done its very best to make sure that I have a full 
recovery. Every soldier deserves that right--to heal with the very best 
resources we have to offer.

    Senator Isakson. Specialist Capps, that is exactly why we 
are here today, to see to it that our soldiers get the very 
best care possible. And as your testimony has said, what's 
being done here at the Augusta VA Medical Center is the example 
of exactly what you want for every soldier in the military, if 
I understood your testimony.
    Specialist Capps. Yes, sir. Thank you.
    Senator Isakson. I want to take just a minute to ask both 
of you a couple of questions and I want to thank you very much 
for your testimonies.
    Sergeant Morrissey, Specialist Capps repeated your second 
point in terms of recommendations with regard to financial 
entitlements. And in the Committee in Washington--I know our 
staff would go along with this--we have heard this a number of 
times. What suggestion--understanding that you're a 30-year 
veteran and know your way around the military--which I 
appreciate that comment because sergeants always do--tell us 
what you would recommend the military do in terms of making 
those entitlements known on a timely basis to these soldiers.
    Sergeant Morrissey. The first observation, Senator, is that 
the information needs to be distributed within the hierarchy of 
the military and explained fully before it can leak out and be 
disseminated down to the soldiers. I found that I had any 
number of family, friends, military, nurses telling me about 
every little thing and then as I started to push, I knew that 
the people I was talking to weren't even aware of some of these 
things. For instance, like the combat injury pay. The TSGLI 
(which I didn't know about until I awoke in the hospital and 
one of the nurses told me about it), at first I couldn't even 
believe it was true. But then finding people--you know, you go 
through all the case managers and they are saying, ``it's, 
well, you know, that's not me now. That's not my 
responsibility.'' Well, if you're supposed to be taking care of 
my needs, what are you supposed to be doing? So, I really think 
that the information needs to be distributed through the 
hierarchy and understood immediately; and taught where the 
responsibility for dissemination of that information lies. The 
biggest confusion I found was people pointing at the other guy.
    Senator Isakson. In your testimony you said you had seven 
case managers. Was that within your time here?
    Sergeant Morrissey. That is correct. Both the time that I 
spent at Eisenhower, the VA, and then being moved back to 
Eisenhower, I have been through seven different case managers, 
which for me--I'm not saying it was a problem for me. But, I 
always am concerned that if the younger troops who don't know 
how to make their way encounter that, they may be less willing 
to push ahead. So, I think we need to make it easier for 
younger troops.
    Senator Isakson. I have two questions, subquestions, to 
that. Number 1, are the case managers facility-specific rather 
than soldier-specific? In other words, case managers at 
Eisenhower and case managers at the Augusta VA don't cross.
    Sergeant Morrissey. Correct. When I was at the hospital in 
Eisenhower I dealt with them. When I moved over here, I was 
told the case manager here would be my primary contact. But 
then once I moved back, then I was assigned to another person 
again. So for me it was easy to make my own way, but I use the 
example simply because I'm not sure if a younger person, less 
experienced, would be as aggressive in pushing ahead.
    Senator Isakson. But those case managers, are they full-
time case managers? I mean, is that their job?
    Sergeant Morrissey. Yes, I believe so.
    Senator Isakson. In terms of hierarchy, I take it that what 
you meant by that was, not everybody in the hierarchy knows 
what everybody else knows with regard to benefits, and it's 
kind of a patchwork; is that correct?
    Sergeant Morrissey. That is correct, sir.
    Senator Isakson. Your testimony is very helpful. Thank you.
    Specialist Capps, your testimony was wonderful and part of 
it hit home with me on why it's so important what Doug and 
everybody down here have done. I just left 2 weeks ago touring 
the VA hospital in Atlanta on Clairmont Road and there were a 
lot of veterans who were receiving services, and they were 
veterans of World War II, Korea and Vietnam. What struck me, 
having been to Landstuhl and Walter Reed hospitals, is the 
dramatic change in the types of injuries in this war. In 
Afghanistan and Iraq the weapon of choice is an explosive IED 
or a suicide bomber, and the injuries are traumatic, both from 
a standpoint of the brain as well as the extremities. For the 
benefit of those who don't know that, would you talk a little 
bit about the time--from the time you were hit and the 20 
minutes you were picked up and your process in how you got 
treatment due to those types of injuries.
    Specialist Capps. Well, at the time I was hit I immediately 
went to the ground. I remember the actual explosive blew up 
directly below me. Everything went black. I stayed conscious 
the whole time, though. I remember lifting up and coming back 
down. The reason why I mentioned that our guys were some of the 
best I'd ever seen was their professionalism--no matter what 
their age. They immediately secured the area in which we did 
have some insurgent activity. It was dealt with very, very 
quickly. Before I knew it, I was on a helicopter. Our 
lieutenant had secured the area. All the personnel who needed 
to be treated were treated quickly by our combat lifesavers. I 
was the only actual medic out there on the scene until the U.N. 
convoy showed up, which was minutes after it happened. Some of 
those guys jumped in the middle of it. I was amazed to see them 
work. By the time I got on that Black Hawk I had nurses there, 
doctors already on the Black Hawk treating my wounds and making 
sure that--just like a little cut on my nose here. Actually, 
the tip of my nose was almost cut off. They had put it back 
into place and before I got there, they already knew my 
injuries; and immediately--there were six of us brought in at 
that time--and at that point they jumped in there. Those people 
were so professional in what they did. I had x-rays; talking on 
the cell phone to my wife I had all my lacerations fixed on my 
face. This was in the first--within the first 30 minutes to an 
hour. That was how quick and how responsive they were. And some 
of the other gentlemen who had facial lacerations were being 
dealt with too. The personnel were great there. I hope that 
answers your question a little bit on how the--
    Senator Isakson. One of the points I was getting to--you 
went from the battlefield to immediate care within minutes. Did 
you then go to Landstuhl?
    Specialist Capps. Yes, sir.
    Senator Isakson. How did you--did you go by C-17?
    Specialist Capps. Yes, sir. Yes, sir.
    Senator Isakson. Which is this phenomenal piece of 
equipment, if you've ever seen the Medevac C-17 configuration. 
I appreciate your paying tribute to those people at Landstuhl 
because they do a miraculous job as well. The point I was 
getting to is because of those miraculous jobs--both because of 
the equipment that our soldiers now have on the torso and the 
blast glasses and all those protective things, the 
preponderance of injuries are to the extremities and you have a 
lot more amputations. You have a lot more prostheses and you 
have a longer type of medical service need. It's not--it's not 
just like your nose. You can sew it up and it looks just fine 
and it's not going to cause you a problem. But there are other 
injuries where--not only while you're on active duty but as a 
veteran retired or off-duty you're going to continue to need 
those services. That's why what they've done here is so 
important, because it's a seamless transfer and those injuries 
are really timeless. Many of them will be with you the rest of 
your life. So, your story was very important to illustrate to 
everybody the nature of the injuries that are received in 
Afghanistan and Iraq and the need for that seamless transfer 
from DOD to VA and the long-term care that our veterans deserve 
and should get.
    Specialist Capps. Yes, sir. It was very, very seamless; and 
it was very caring all the way--all the way--even on the 
transport, sir. The medical personnel there were attending to 
every need of every soldier who was wounded.
    Senator Isakson. It's a flying hospital, isn't it?
    Specialist Capps. Yes, sir.
    Senator Isakson. And your recommendation, which echoed 
Sergeant Morrissey's recommendation on entitlements, you said 
precisely the same thing he did in a different way. We will 
take that back to the Committee and work with the Department of 
Defense and see what we can do to make that better so that 
particularly the young soldiers who don't know their way around 
have a one-stop shop where they can go and get the information 
they need on the entitlements that they have earned and 
deserve. Thank you very much for your testimony today. 
[Applause.]
    As our next panel is coming forward and our two veterans 
are making room for them, I'm going to break with the agenda, 
which since I'm the only person from the Committee here I guess 
I've got the authority to do. I want to introduce Laurie Ott. 
Laurie, could you come up here a second. Would you come right 
over here.
    I'm introducing Laurie because she is, as I told Doug 
Barnard, she's easy on the eyes. But also, she's got a great 
story to tell about what has been done here in Augusta and 
about how this idea started. And just like these two brave, 
courageous veterans who have just testified--talk about a 
veteran that really was the catalyst to make this happen.
    Laurie, would you take a minute or two to just fill us in.

   STATEMENT OF LAURIE OTT, EXECUTIVE DIRECTOR, CSRA WOUNDED 
   WARRIOR CARE PROJECT, AUGUSTA'S VA MEDICAL CENTER AND THE 
                     ACTIVE DUTY REHAB UNIT

    Ms. Ott. Thank you, Senator. It is a delight and an honor 
to be here with you. Thank you so much for coming to Augusta. 
We really appreciate your efforts, all that you have been doing 
and all that we hope you do.
    I had the pleasure and honor, really, of interviewing 
Specialist Crystal Davis in early March of this year. She is a 
22-year-old young woman from Camden, South Carolina. She was in 
Ramadi, Iraq, in November 2005. She's a track mechanic. She was 
supposed to fix the tracks on tanks and when she arrived in 
Iraq she realized there weren't any tanks and she would be 
doing something else.
    She was driving an 18-wheeler truck to go retrieve our 
exploded vehicles from the road and they were also on a convoy 
to discover and find IEDs. She found one. Her vehicle suffered 
an IED blast directly under her vehicle on the driver's side 
and she ended up losing her leg in that blast. She said she saw 
it happening; she could feel it happening. And she told me when 
it was happening she thought, well, I guess I'm going to lose 
that leg.
    She ended up being transferred very quickly from Iraq to 
Landstuhl; from Landstuhl to Walter Reed. She was at Walter 
Reed and had dozens of surgeries--more than she could count. 
She said she received excellent medical care at Walter Reed; 
however, when it came time for her physical therapy and 
occupational therapy, there was a delay. She said she could get 
one appointment a day at Walter Reed, but she said she felt she 
needed more. And she also felt that conditions were very 
crowded and that she wasn't being pushed. When she would come 
home to Camden from Walter Reed and visit her family, she would 
notice she would get better and then when she returned to 
Walter Reed she felt she would deteriorate. She ended up being 
transferred to the active duty rehab unit here at the VA and 
she reported to me that she arrived on a walker and within 3 
weeks was on her prosthetic full time.
    I thought this was a very dramatic story and I thought it 
should be told, so, we featured her on the news. Additionally, 
Specialist Davis told me something else. She said it was the 
best thing that had ever happened to her, that she felt it had 
given her a purpose in life; and now she wants to go to 
physical therapy tech school in Texas to become a physical 
therapy technician. She wants to turn around and help those 
like herself. And I hope that one day she gets transferred back 
to Augusta. I hope she ends up working in our active duty rehab 
unit. I think she's a wonderful example of the service the men 
and women of our military give to our country, and we can never 
thank them enough. She's a source of inspiration for all of us. 
Thank you for letting me tell her story.
    Senator Isakson. Thank you, Laurie. Crystal's story is a 
very important testimony to what's been done here--how much 
quicker she got service and how much better she got in time 
because it was close in proximity and easy to access. Thank 
you, Laurie.
    I'd now like to introduce our second panel. First is Dr. 
Dennis Hollins. Dr. Hollins is a Ph.D. and he's the medical 
director of the Augusta VA Medical Center active duty 
rehabilitation unit at the Augusta VA Medical Center. Welcome, 
Doctor. We're glad to have you.
    Next is the guy I brag about all the time, General 
Schoomaker, who right now is on duty at Walter Reed Army 
Hospital in Washington, DC, where I spend about 1 day every 
couple of months when there's a Georgia soldier there, going to 
see firsthand the services that they receive. And I can tell 
you that they are just phenomenal, General, and I appreciate 
what you're doing. I also appreciate your attention to address 
those problems that we have experienced to see to it that it 
gets even better.
    And last but not least, Brigadier General Bradshaw. 
Welcome, sir. We're glad to have you at this hearing today and 
glad to have you at this Vet Center. Your service to your 
country has been wonderful and outstanding. Your service here 
at Eisenhower is phenomenal and we're very appreciative.
    If each of you would take about 5 minutes--we have your 
written testimony, which will be submitted for the record, I 
might add. We'll start with you, Dr. Hollins, and then we'll go 
along and then I'll have a few questions for each of you.
    Dr. Hollins. Thank you. Good morning, Senator Isakson.
    Senator Isakson. Good morning.

  STATEMENT OF DENNIS HOLLINS, M.D., MEDICAL DIRECTOR, ACTIVE 
           DUTY REHAB UNIT, AUGUSTA VA MEDICAL CENTER

    Dr. Hollins. Congressman Broun and other distinguished 
guests, on behalf of the staff of the Augusta VA Medical Center 
I would like to welcome you to our fair city and our facility; 
and to thank you for your dedication and service to our 
Nation's veterans and servicemembers. Thank you also for 
allowing me to represent the U.S. Army Southeast Regional 
Medical Command and the VA Southeast Network (VISN7).
    It is my pleasure and honor to share with you how the 
Department of Veterans Affairs and the Department of Defense 
work together on the active duty rehabilitation unit at the 
Augusta VA to provide health care to wounded soldiers returning 
from Iraq and Afghanistan. I would like to request my written 
statement be submitted for the record.
    Senator Isakson. Without objection.
    Dr. Hollins. The active duty rehabilitation unit at the 
Augusta VA meets the unique intensive medical rehabilitation 
needs of active duty servicemembers injured in combat or who 
sustain serious non-combat injuries during service. Since the 
program was created 3 years ago the active duty unit has 
provided care to more than 1,037 servicemembers--more than 491 
of whom were treated as inpatients. Approximately 32 percent of 
all patients were injured in combat in Operation Enduring 
Freedom or Operation Iraqi Freedom, and about 25 percent of our 
admissions are for brain injuries. Roughly 16 percent of our 
admissions will be considered for medical retirement through 
the medical board process and, as you noted, 26 percent of our 
inpatients are returned to their units fit for duty.
    Even before OEF and OIF began, the military knew providing 
care to wounded servicemembers would demand the highest 
priority. Then-Brigadier General Eric B. Schoomaker, the 
commanding general of Eisenhower Army Medical Center, 
approached Augusta VA officials in August 2003 to determine if 
a team of medical specialists capable of providing therapeutic 
support could treat patients at Eisenhower. Augusta VA's 
leadership proposed a new active duty inpatient unit in the 
Augusta VA Medical Center and this unit would provide 
clinically managed and medically rehabilitative care to active 
duty servicemembers. The active duty unit received its first 
inpatients in February 2004. Leadership obtained necessary 
rehab equipment, assembled a rehabilitation care team and 
oversaw the creation of a 3400-square-foot gym--a therapy 
gymnasium. Representatives from the Southeast Regional Medical 
Command and VISN7 signed a memorandum of understanding defining 
roles for the support and growth of the program.
    As Committee members know, most combat injuries from OEF/
OIF are the result of explosive blasts. Orthopedic injuries, 
wound management and Traumatic Brain Injuries are the most 
frequently seen medical problems at our unit. The active duty 
unit also contains a very strong PTSD or Post Traumatic Stress 
Disorder treatment program designed to help patients process 
their combat experiences. We screen all patients with combat 
exposure during the admissions process for both PTSD and TBIs.
    The active duty unit maintains a warrior ethos for the 
sailors, soldiers, Marines and airmen we treat in a variety of 
ways, from addressing our patients by rank to using military 
terminology on the unit. A dedicated military liaison case 
manager handles administrative and command and control issues 
for our patients, which helps them and their families feel at 
home, helping to reduce their stress. This project has been a 
success because VA and DOD staff communicate openly and 
directly. Warrior and transition commanders at Eisenhower 
attend our weekly team conference meeting here in the VA and 
once a week the unit's medical staff attends the orthopedic 
surgery rounds at Eisenhower Army Medical Center. This 
cooperation and integration demonstrates what VA and DOD can do 
for our wounded servicemembers and veterans when we work 
together. The pride this Nation takes in those who serve is 
evident in the tremendous attention and accolades this unit has 
received.
    This concludes my prepared statement. I'll be happy to take 
any questions you have.
    [The prepared statement of Dr. Hollins follows:]
 Prepared Statement of Dennis Hollins, M.D., Medical Director, Active 
Duty Rehabilitation Unit, U.S. Army Southeast Regional Medical Command 
(SERMC) and Augusta VA Medical Center and VA Southeast Network (VISN 7)
    Good Morning, Senator Isakson. On behalf of the staff of the 
Augusta VA Medical Center, I would like to welcome you to our fair city 
and our facility, and to thank you for your dedication and service to 
our Nation's veterans and servicemembers. Thank you also for allowing 
me to represent the U.S. Army Southeast Regional Medical Command 
(SERMC) and VA Southeast Network (VISN 7). It is my pleasure and honor 
to share with you how the Department of Veterans Affairs (VA) and the 
Department of Defense (DOD) work together on the Active Duty 
Rehabilitation Unit at the Augusta VA Medical Center to provide health 
care to wounded soldiers returning from Iraq and Afghanistan. I would 
like to request my written statement be submitted for the record.
    The Active Duty Rehabilitation Unit (ADRU) at the Augusta VA 
Medical Center meets the unique intensive medical rehabilitation needs 
of active duty servicemembers injured in combat or who sustained 
serious, non-combat injuries during service. Since the program was 
created 3 years ago, the Active Duty Unit has provided care to 1,037 
servicemembers, 491 of whom were treated as inpatients. Approximately 
32 percent of all patients were injured in combat in Operation Enduring 
Freedom or Operation Iraqi Freedom (OEF/OIF), and about 25 percent of 
our admissions are for brain injuries. Roughly 16 percent of our 
admissions will be considered for medical retirement.
    Even before OEF and OIF began, the military knew providing care to 
wounded servicemembers would demand the highest priority. Brigadier 
General Eric B. Schoomaker, then Commanding General of Eisenhower Army 
Medical Center, approached Augusta VA officials in August 2003 to 
determine if a team of medical specialists capable of providing 
therapeutic support could treat patients at Eisenhower. Augusta VA's 
leadership proposed a new, active duty inpatient unit in the Augusta VA 
Medical Center. This unit would provide clinically managed and 
medically rehabilitative care to active duty servicemembers.
    The Active Duty Unit received its first inpatients in February 
2004. Leadership obtained necessary rehabilitation equipment, assembled 
a rehabilitation care team, and oversaw the creation of a 3,400 square 
feet therapy gymnasium. Representatives from the Southeast Regional 
Medical Command and VISN 7 signed a Memorandum of Understanding 
defining roles for the support and growth of the program.
    As the Committee members know, most combat injuries from OEF/OIF 
are the result of explosive blasts. Orthopedic injuries, wound 
management, and Traumatic Brain Injuries (TBI) are the most frequent 
medical problems managed at the Augusta VA Medical Center. The Active 
Duty Unit also contains a strong Post Traumatic Stress Disorder (PTSD) 
treatment program, designed to help patients process their combat 
experiences. We screen all patients with combat exposure during the 
admissions process for PTSD and TBI.
    The Active Duty Unit maintains the Warrior Ethos for the Sailors, 
Soldiers, Marines, and Airmen we treat in a variety of ways, from 
addressing patients by rank to using military terminology. A dedicated 
military liaison/case manager handles administrative and command and 
control issues for our patients. This helps our patients and their 
families feel at home, reducing their stress.
    This project is a success because VA and DOD staff communicate 
openly and directly. Warrior in Transition commanders at Eisenhower 
attend our weekly team conference meeting here in the Augusta VA 
Medical Center, and once a week, the unit's medical staff attends the 
orthopedic surgery rounds at Eisenhower Army Medical Center. This 
cooperation and integration demonstrate what VA and DOD can do for our 
wounded servicemembers and veterans when we work together. The pride 
this Nation takes in those who served is evident in the tremendous 
attention and accolades this unit receives.

    Senator Isakson, this concludes my prepared statement. At this time 
I would be happy to respond to any questions you may have.

    Senator Isakson. Thank you, Dr. Hollins.
    General Schoomaker.

     STATEMENT OF ERIC B. SCHOOMAKER, MAJOR GENERAL, M.D., 
 COMMANDER, NORTH ATLANTIC REGIONAL MEDICAL COMMAND AND WALTER 
                    REED ARMY MEDICAL CENTER

    General Schoomaker. Good morning, sir. Greetings to you and 
to Congressman Broun and all the distinguished guests and 
leaders that are here today. Senator Isakson, thank you so much 
for the opportunity to participate in these hearings on these 
cooperative efforts between the Department of Defense, 
Department of the Army and the Department of Veterans Affairs 
in providing comprehensive and rehabilitative care to our 
service men and women. I'm Major General Eric Schoomaker. As 
you pointed out earlier, I currently serve as the commanding 
general of the North Atlantic Regional Medical Command and 
Walter Reed Army Medical Center. I am Don Bradshaw's 
counterpart in the North Atlantic now.
    The relationship between the Augusta VA and the Dwight 
David Eisenhower Medical Center has grown under a joint venture 
for shared services at JVSS since 1993. Under the JVSS we have 
shared open heart surgery and other services such as physical 
therapy, hyperbaric therapy, gynecologic and obstetric 
services, just to name a few of the collaborative efforts that 
were here to enhance health care services for beneficiaries in 
the southeast U.S. and, really, throughout the services. I 
think it's important to note that two key conditions were 
present that have lent to the success of this collaborative 
effort that we see here in Augusta. The first is an essential 
pre-condition for a large cooperative team of health care 
leaders in the VISN7 and the integrated network for the VA 
that's comparable to our Army regional commands, especially the 
then-VISN director, Ms. Linda Watson and her chief medical 
officer, Dr. Carter Mecher; leaders in the Augusta VA Medical 
Center, notably the then-director, Mr. Jim Trusley, and his 
chief of staff Dr. Tom Tiernan who's here in the audience 
today; and leaders on my own Southeast Regional Medical Command 
staff at the time, our chief of staff Colonel, now retired, Sam 
Franko and our chief regional physician, Colonel Dr. Mike 
Stapleton, who's now retired and has fallen into the position 
that Carter Mecher had in the VA. Working closely with 
clinicians and administrators at both hospitals, especially Dr. 
Rose Trenser and now Dr. Dennis Hollins here at the Augusta VA 
Medical Center--you know, sir, I'm a little embarrassed that 
I'm often credited with being the creator of this and point out 
it's illustrative of that principle that when people like you 
they remember what you do well; when they don't like you they 
remember everything you didn't do well. And I guess this is 
just a sign people like me and that as a leader, things were 
working well, because this team was what really put this 
together, and I think that you know this as well as I do. I'm 
just privileged simply to be the talking head for that team.
    This unique and very successful partnership is principally 
about a very visionary and industrious team working together 
with one goal in mind. And you heard Dennis describe that 
providing the best care for soldiers, sailors, airmen and 
Marines at a site that was closest to their home.
    The second precondition that led to this success was the 
complementary plan for organizing services and patient referral 
on a regional basis. On a regional basis. Just as critical as 
the team I outlined above was the notion of overlapping the VA 
and Army regional health care delivery. In truth, this Augusta 
VA active duty rehab unit was just one of many successful 
programs that were subcomponents of a larger SERMC--that is 
Southeast Regional Medical Command--and VISN7 joint venture for 
shared services. Both the SERMC and the VISN committed to this 
overarching plan and this extends to other army medical and VA 
facilities in the regions that I believe the VISN director, Mr. 
Biro, will be talking about. Many of the first major active 
component units in support of OEF and OIF were deployed from 
Army posts within the SERMC area of responsibility--and you've 
heard about the 3rd Infantry Division. Quite frankly, early in 
OIF and OEF the 3rd Infantry Division out of Fort Stewart, 
Georgia; the 101st Airborne Division out of Fort Campbell, 
Kentucky; and many of the earliest National Guard and Reserve 
units that were deployed in support of the war came out of the 
southeastern U.S.. And it was apparent that we in Army medicine 
needed a regional response plan for the injured soldiers that 
were discovered either during mobilization and training or for 
returning casualties, and that's when we turned to the Augusta 
VA Medical Center and the VISN7, and developed the active duty 
rehab unit. We leaned very heavily on their pre-existing 
expertise in Post Traumatic Stress Disorder, spinal cord 
injury, blind and deaf treatment, and the like.
    I believe it's important to point out that these sharing 
arrangements between the DOD and the VA can aid in the success 
of the Army medical action plan. That's what the Army calls a 
larger operational and strategic plan which is standardizing 
many of the processes that you heard these two soldiers 
complain about--standardized approaches to benefit counseling, 
for example. We are centering much of that in our active duty 
large hospitals in soldier and family assistance centers, 
SFACs, so that we get our counselors, we get our finance 
people, we get our personnelists, VA benefits counselors, we 
get our VA health advisors all in one place working off of a 
single plan. It's very hard to coordinate the many, many 
diverse programs of--generous programs from charitable 
contributions to government programs that are intended to 
provide for the needs of these soldiers, sailors, airmen and 
families and that that, again, needs to be done in a 
standardized process that the Army medical action plan is 
working and very, very instrumental in that. I'll conclude my 
comments by pointing out how these shared arrangements between 
the DOD and the VA can aid in the success of this Army medical 
action plan which is being engineered by--the architect and 
engineer for that, the bureaucracy buster as we call him in the 
Army--is my deputy commander of the NARMC, Brigadier General 
Mike Tucker, who you may have met.
    It's facilitating a seamless transition for these brave 
warriors--soldiers like Sergeant First Class Morrissey and 
Specialist Capps, and their families--who have borne really the 
heat of the battle. A seamless transition, either back to duty, 
because often lost in this is how many of these soldiers, 
sailors and airmen are returning to duty. The vast majority of 
them are going back to duty. We have retained 20 percent of our 
amputees in uniform with prosthetic devices. This is an 
unprecedented accomplishment, just as you pointed out the 
survival of battlefield wounds is unprecedented.
    As a sidebar, I spoke on Saturday evening to the veterans--
61st annual reunion of the 83rd Infantry Division, mobilized in 
1942, trained in Camp Atterbury, Indiana. They landed in 
Normandy and saw 270 days of continuous combat from Normandy 
through the hedgerows, through Brittany into Luxembourg, the 
Hurtgen Forest. They were trapped at Bastogne; and crossed the 
Elbe river--the only military unit to cross the Elbe--and 
charged on Berlin before being called back. In 270 days, sir, 
they lost 1,500 casualties, 2,800 of whom died. I talked to the 
veterans of that conflict in that division. Many of the 
soldiers, like the two soldiers you saw today, in prior 
conflicts would not have survived. One solder talked about 
seeing his first loss in combat, a man who had lost his arm and 
his leg simultaneously, and those soldiers could only stand by 
and watch that man bleed to death. Today we're seeing those 
soldiers back through the evacuation system and are taking care 
of them and many of them, thankfully, are returning to duty or 
to productive civilian lives. And that's our goal and that's 
the goal of the Army medical action plan. In this regard the VA 
has been extraordinarily instrumental, providing us with VA 
counselors from a time no later than 30 days before the soldier 
is discharged from the hospital so that that handoff is smooth; 
and we have a warm handshake between the VA and the Army, or 
the services, to make that happen.
    Sir, it's been a privilege to participate in today's 
hearings and I look forward to your questions.
    [The prepared statement of MG Schoomaker follows:]
  Prepared Statement of Major General Eric B. Schoomaker, Commander, 
 North Atlantic Regional Medical Command and Walter Reed Army Medical 
                                 Center
    Senator Isakson, Thank you for the opportunity to participate in 
this hearing on the cooperative efforts between the Department of 
Defense (DOD), Department of the Army (DA), and the Department of 
Veterans Affairs (VA) to provide the most comprehensive care and 
rehabilitation for our service men and women. I am Major General Eric 
Schoomaker, currently serving as the Commanding General of the North 
Atlantic Regional Medical Command (NARMC) for the Army Medical 
Department and the Commanding General of the Walter Reed Army Medical 
Center (WRAMC) in Washington, DC.
    I feel especially privileged to be included in these hearings 
today, having spent three very professionally and personally rewarding 
years as Commanding General of my counterpart regional medical command 
and medical center--the Southeast Regional Medical Command (SERMC) and 
Dwight David Eisenhower Army Medical Center (DDEAMC)--here at Ft. 
Gordon in Augusta, GA--a command currently held by my good friend and 
trusted colleague, Brigadier General Don Bradshaw. It was during my 
years in Augusta, at the outset of the current phase of the Global War 
on Terrorism--Operations Enduring and Iraqi Freedom--that this unique 
medical and rehabilitation unit--The Active Duty Medical Rehabilitation 
Unit in the Augusta VA Medical Center (Augusta VAMC)--was created. To 
gain a better understanding of the genesis of this unit, it is 
necessary to outline the history of the relationship between these two 
Federal medical facilities.
    Prior to 1993, Augusta VAMC and DDEAMC shared resources on a 
limited basis via a traditional VA/DOD sharing agreement. This included 
laboratory and other ancillary services. In October 1993, a decade 
before the war began, the Augusta VAMC and DDEAMC began sharing 
operations under a Joint Venture for Shared Services Agreement (JVSS) 
approved at the highest levels of both VA and DOD. This allowed sharing 
of services without the restrictions placed by sharing agreement 
regulations. The bartering of services was central to this agreement. 
This also allowed for the quick establishment of local agreements to 
meet the urgent needs of both facilities. Under this authority, a joint 
neurosurgery program was established at the Augusta VAMC. As a result, 
today all neurosurgery services for VA and DOD beneficiaries are 
provided at Augusta VAMC utilizing Department of the Army 
neurosurgeons.
    Under JVSS authority, numerous business agreements were put into 
place, including open heart surgery which is provided to both VA and 
DOD beneficiaries at DDEAMC utilizing Department of the Army surgeons. 
Other agreements under the JVSS authority included:

    <bullet> Sleep Lab Studies
    <bullet> Imaging services (including Mammography)
    <bullet> Gynecological/Obstetric Services
    <bullet> Separation Physical Examinations
    <bullet> Speech Pathology Support
    <bullet> Laboratory Services
    <bullet> Physical & Occupational Therapy
    <bullet> Hyperbaric Oxygen Therapy
    <bullet> Intensive Care Unit beds when needed
    <bullet> Laboratory Space for Animals
    <bullet> Echocardiogram Readings
    <bullet> Lodging for DDEAMC Inpatient Substance Abuse Programs

    The FY 2003 National Defense Authorization Act required a number of 
health care resource sharing and coordination projects. These included 
coordinated management systems in Budget & Financial Management System; 
Coordinated Personnel Staffing; and Medical Information/IT Systems. 
Augusta VAMC and DDEAMC successfully competed for funding for a project 
in Coordinated Personnel Staffing. The proposal focused on hiring of 
Registered Nurses for critical care. It was subsequently expanded to 
neurosurgery when both Army neurosurgeons at DDEAMC retired from active 
duty and those positions were not backfilled by the Department of the 
Army. Funds from the demonstration project were approved for the use of 
paying salaries of two neurosurgeons to continue the joint Augusta 
VAMC/DDEAMC neurosurgery program. The demonstration project expires at 
the end of FY 2007. Augusta VAMC and DDEAMC officials are in 
discussions on how the neurosurgery program will continue.
    In 2004, new guidance was given to VA and DOD health care 
facilities regarding the sharing of resources. Bartering of services 
was no longer allowed, and an agreed upon rate of CHAMPUS Maximal 
Allowable Charges (CMAC) minus 10 percent was established for 
outpatient services provided by one department to the other. In view of 
this a blanket sharing agreement was established between the Veterans 
Integrated Service Network 7 (VISN 7) and the Southeastern Regional 
Medical Command (SERMC). This agreement provided guidance to VISN 7 and 
SERMC facilities on billing of outpatient and inpatient services. 
Inpatient rates of exchange are based upon the interagency exchange 
rate or locally agreed upon rates to insure coverage of facility costs. 
This agreement was subsequently updated in FY 2007.
    So the ground was fertile for a close working relationship between 
our two facilities at the outset of the GWOT. We in the Army Medical 
Department, in DDEAMC and in SERMC had grown confident in and 
respectful of what the Augusta VAMC and VISN 7 could offer our patients 
and our VA colleagues had grown more familiar with our culture and 
patient needs. It is important to note that two key conditions were 
present:

    1) An essential precondition was a large cooperative team of health 
care leaders in VISN 7, especially the then-VISN Director, Ms. Linda 
Watson, and her chief medical officer, Dr. Carter Mecher; leaders at 
the Augusta VAMC, notably the then-Director, Mr. Jim Trusley, and the 
Chief of Staff, Dr. Thomas Kiernan; leaders on my SERMC staff--our 
Chief of Staff, Colonel (now retired) Sam Franco and our chief regional 
physician, Colonel (Dr.) Mike Stapleton (now retired and working for 
the VA); and clinicians and administrators at both hospitals, 
especially Dr. Rose Trincher and Dr. Dennis Hollins at the Augusta 
VAMC. This unique and very successful partnership is principally about 
a very visionary and industrious team working together with one goal in 
mind: to provide the best care for Soldiers, Sailors, Airmen and 
Marines at a site closest to their home or home unit.
    2) The second condition which led to this success was a 
complementary plan of organizing services and patient referral on a 
regional basis. Just as critical as the team I outlined above was the 
notion of overlapping VA and Army regional health care delivery. In 
truth, the Augusta VAMC Active Duty Medical Rehabilitation Unit was one 
very successful sub-component of a larger SERMC and VISN 7 Joint 
Venture for Shared Services (JVSS) described above. Both the SERMC and 
the VISN are committed to this overarching plan--which extends to other 
Army medical and VA facilities in the region and even extends into such 
areas as mutual support of disaster planning and response.

    When many of the first major Active Component units in support of 
OEF/OIF were deployed out of Army posts within the SERMC area of 
responsibility--such as the 101st Airborne Division from Ft. Campbell, 
KY; the 3rd Infantry Division from Ft. Stewart, GA; and a large number 
of the first Reserve Component battalions, regiments and brigades 
mobilized out of this region as well, it was apparent that we in Army 
Medicine needed a regional response plan for ill and injured Soldiers 
during the mobilization and training process and for returning 
casualties and Soldiers and other Service Members who fell ill during 
deployments and returned to their home station in the Southeast.
    In response to this critical need to provide rehabilitation 
services for military personnel injured in Iraq and Afghanistan, VISN 7 
and SERMC developed the Augusta VAMC's Active Duty Medical 
Rehabilitation Unit. We leaned heavily on the VAMC's expertise in 
management of spinal cord injury, treatment of Post Traumatic Stress 
Disorder (PTSD), as well as rehabilitation for blind and deaf veterans. 
The unit, staffed by VA personnel, provides all aspects of 
rehabilitative medicine services, including both Traumatic Brain Injury 
(TBI) and blast injuries. The first patient was admitted to the program 
on February 4, 2004. The unit was formally opened in May 2004. Through 
August 3, 2007, 1,037 active duty personnel have been treated in this 
unique unit.
    Others will speak today about the specifics of what had to be done 
at SERMC/DDEAMC and VISN 7/Augusta VAMC to establish and maintain this 
unit and the partnership. I will add two perspectives with regard to 
challenges we experienced:

    1) The first involved the transformation of the cultures of both 
the VA and of the DDEAMC--from clinicians to command and control 
elements to mutually meet the needs of the other. I have been 
thoroughly impressed and humbled by the efforts which our VA colleagues 
have made to successfully engage a younger population of Warriors and 
new veterans and to build their trust and confidence that ``this is not 
your father's--or grandfather's--VA hospital.'' They treat our wounded 
warriors as we do: highly trained athletes whose new mission is to heal 
as completely as possible and to rejoin their comrades in uniform or to 
leave Active Duty and resume productive lives as citizens. We in the 
military health system know that the VA health care system is among the 
top systems of care in the Nation and the world, focused on evidence-
based medicine and outcomes of care. It has been gratifying to see them 
win the respect of each Wounded Warrior, one Soldier and Family at a 
time. We, in turn, aggressively placed liaisons and made daily contacts 
with our patients and the Veterans Healthcare Administration (VHA) 
staff to jointly manage these rehabilitating Warriors.
    2) Second, the notion of marrying the Army's regional medical 
commands and VHA's regional health care assets has been very successful 
in this region. However, it was not the initial focus of the VA 
leadership and ran counter to their focus on the four VHA Poly-Trauma 
Units. Frankly, we all questioned this approach, especially since SERMC 
and DDEAMC as a regional asset for the entire U.S. Army Medical Command 
was the centerpiece of Soldier care, rehabilitation and physical 
disability adjudication. We also experienced first-hand the support and 
treatment which the Augusta VAMC could provide literally in our own 
back-yard. It is gratifying to see a more dispersed system of regional 
and community-based care emerging from the experience of the last 4 
years.

    Many of the leaders and clinicians mentioned earlier were present 
when DDEAMC-Augusta VAMC Active Duty Medical Rehab program was awarded 
the Olin Teague award by VA Secretary Jim Nicholson in 2005. The pride 
many of us have in this achievement is second only to the pride we feel 
in seeing our Warriors receiving the very best care which Federal and 
U.S. Medicine can provide through this partnership. The unit serves as 
one important example of what our two systems of care can provide in 
defense of the Nation when we harness the vision, energy, intelligence 
and resources of both in support of the Service Member and his or her 
Family.
    As I conclude my comments, I believe it important to point out how 
sharing arrangements between the DOD and the VA can aid in the success 
of the Army Medical Action Plan (AMAP), an Army-wide initiative to 
facilitate a seamless transition for those brave Warriors who have 
borne the battle and their Families to civilian life and ongoing care 
and assistance through the many programs and services of the VA. Key to 
the development and ultimate success of the AMAP is the establishment 
of close working relationships with the VA early in the healing 
process. The AMAP provides for this by assigning VA Primary Care and 
Case Managers to every Warrior in Transition no later than 30 days 
prior to discharge. By co-locating VA Liaisons with Military Treatment 
Facilities where Warrior Transition Units have been established, many 
of the preliminary interactions between the VA and Warriors in 
Transition can be accomplished prior to discharge. VA appointments can 
be arranged, Veteran benefits counseling completed, accessibility 
modifications made to Warrior homes and automobiles, disability 
determinations completed, monthly compensation arranged to begin in a 
timely manner immediately following discharge, and follow-on care and 
rehabilitation programs developed.
    With the growing number of Warriors requiring care and assistance 
as a result of wounds, injuries, and illness received as the world 
continues to prosecute the Global War on Terror, the DOD Military 
Health System (MHS) and the Veterans Health Administration are 
challenged to provide the resources and care these heroes require. 
Through sharing resources, care can be provided across the United 
States of America in the most cost effective manner possible. Where the 
VHA has expertise but not the infrastructure to support necessary 
medical specialties, DOD can provide that infrastructure and 
conversely, where the DOD MHS has the resources the VHA requires, 
cooperative arrangements allow both to leverage these resources. 
Existing statutory vehicles such as the DOD/VA Health Care Sharing 
Incentive Fund established in 38 U.S.C. Section 8111 can be leveraged 
by visionary Congressional, DOD and VA leadership to see to it that 
those so deserving always have the best possible medical facilities, 
medical professionals, equipment, and supplies available when and where 
they are needed.

    Thank you again for the opportunity to appear at this hearing and 
for your focus on our joint DOD/VA health care and rehabilitation 
initiatives.

    Senator Isakson. Thank you, General.
    General Bradshaw.

STATEMENT OF DONALD M. BRADSHAW, BRIGADIER GENERAL, COMMANDER, 
               SOUTHEAST REGIONAL MEDICAL COMMAND

    General Bradshaw. Senator Isakson and other distinguished 
guests, thank you for the opportunity to discuss the 
relationship between the Southeast Regional Medical Command, 
Eisenhower Army Medical Center, Veterans Integrated Service 
Network 7 and the Augusta Veterans Affairs Medical Center 
pertaining to our joint mission to provide seamless quality 
health care to the brave men and women of the U.S. Armed 
Forces.
    As a soldier, commander and family medicine physician I 
recognize the profound impact a combat environment can have on 
the physical, behavioral, emotional and spiritual well-being of 
our warriors and their families. As the current commander of 
Southeast Regional Medical Command and Eisenhower Army Medical 
Center I recognize the importance of working cooperatively with 
our Veterans Affairs partners to ensure these warriors, 
veterans and their families receive the health care they need 
and deserve to restore themselves in body, soul and spirit.
    As you have heard, Eisenhower and the Southeast have a long 
history of working with VISN7 and Augusta Medical Center to 
optimize the Federal health care resources for the provision of 
care. This collaborative relationship led to the establishment 
of the active duty rehab unit in 2004 and you've heard about 
that. Embedded in the active duty rehab unit, as Dr. Hollins 
mentioned, are our Eisenhower Army nurse corps case management 
staff and Eisenhower warrior in transition battalion command 
and control personnel. This combination of clinical and command 
elements enables the warriors in transition assigned to the 
active duty rehab unit to receive coordinated timely health 
care and to maintain the sense of military esprit de corps. In 
addition to these military liaisons, we have combined multi-
disciplinary meetings where my staff comes down and meets with 
his and then his staff comes out and meets with my staff, not 
only on the clinical but screening potential patients, taking 
care of the emotional, spiritual, as well as the physical. 
Furthermore, a Department of Veterans Affairs health and 
benefits advisor is embedded in Eisenhower. This individual 
meets with our wounded warriors to ensure they have a basic 
understanding of their entitlements under the DVA system.
    The remainder of my comments I'd like to focus on the 
resource-sharing achievements between Southeast Region, the 
VISN, Eisenhower and the Augusta Medical Center. Currently, our 
joint leadership meets on a regular basis to monitor the 
sharing activities, proliferate best practices and seek 
opportunities to partner and create efficiencies for providing 
health care services to the DVA and DOD beneficiaries. Examples 
of this sharing have already been mentioned and include imaging 
services, obstetrical and gynecological services, the sharing 
of intensive care unit beds and laboratory services. Eisenhower 
and the Augusta VA Medical Center also cooperate in a number of 
joint endeavors to sustain the quality health care for our DOD 
and DVA beneficiaries and to maximize the available resources. 
Three significant ones are the neurosurgical program that was 
begun in 1995 and smoothly transitioned last summer from 
military positions to civilian positions. Second, the 
coordinated staffing and recruitment joint demonstration 
project which began in 2004 to recruit and train nurses for 
both our systems. And last, our cardiovascular--sorry, 
cardiothoracic resource sharing initiative.
    I want to assure the Committee that the Army medical 
department's highest priority is caring for our warriors and 
their families. Thank you for holding this hearing and thank 
you for this opportunity.
    [The prepared statement of BG Bradshaw follows:]
Prepared Statement of Brigadier General Donald M. Bradshaw, Commander, 
                   Southeast Regional Medical Command
    Senator Isakson, Senator Graham, and other distinguished Members of 
the Committee, I thank you for the opportunity to discuss the 
relationships that exist between the Southeast Regional Medical Command 
(SERMC), Dwight D. Eisenhower Army Medical Center (DDEAMC), the 
Veterans Integrated Service Network (VISN) 7, and Augusta Veterans 
Affairs Medical Center (VAMC) and our joint mission to provide 
seamless, quality health care to the brave men and women of the United 
States Armed Forces. As a Soldier and a Family Medicine physician, I 
recognize the profound impact a combat environment can have on the 
physical, behavioral, emotional and spiritual well-being of our 
Warriors In Transition and their Families. As the current SERMC and 
DDEAMC Commander, I also recognize the importance of working 
cooperatively with our VA partners to ensure our Warriors, Veterans, 
and their Families receive the health care they need to restore 
themselves in body, mind, and soul.
    In opening, DDEAMC and the SERMC have a long and strong history of 
working collaboratively with VISN 7 and the Augusta VAMC to optimize 
the use of Federal health care resources for the provision of health 
care to our Nation's Warriors and Veterans. Our sharing efforts 
actually started in the early 1980's, then matured in 1995 with the 
joint provision of neurosurgical services to DOD and VA beneficiaries, 
and now includes cardiothoracic surgery, the exchange of intensive care 
beds, imaging, and hyperbaric services, to name just a few. One of the 
most noteworthy initiatives occurred in May 2003 when the SERMC 
Commander and the VISN 7 Director established a VA/DOD Tiger Team with 
the goals of identifying opportunities for resource sharing and 
standardizing business processes. This was implemented in anticipation 
of the need for closer collaboration between the DOD and VA in response 
to the impact of the Global War on Terrorism.
    As direct result of this joint effort, the SERMC/VA Southeast 
Network Active Duty Rehabilitation Unit (ADRU) was established at the 
Augusta VAMC in May 2004 to ensure the health care needs of severely 
injured Warriors returning from Operations Iraqi and Enduring Freedom 
(OIF/OEF) are met. The ADRU currently consists of 30 inpatient beds and 
is staffed by numerous VA rehabilitation specialists including 
physiatrists, psychiatrists, psychologists, physical, occupational and 
recreational therapists, social workers, nursing, and administrative 
staff. Other appropriate specialties, such as respiratory therapy, are 
available as needed. The ADRU provides all aspects of rehabilitative 
medicine services for blast, traumatic brain (TBI), and spinal cord 
injuries and also identifies and treats Post Traumatic Stress Disorder 
(PTSD).
    Embedded within the ADRU are DDEAMC Army Nurse Corps case 
management staff and DDEAMC command and control personnel. This 
combination of clinical and command elements enables Warriors In 
Transition assigned to the ADRU to receive coordinated, timely health 
care and to maintain a sense of esprit de corps. Both Departments and 
facilities recognize it is critical to our success that a high degree 
of communication and cooperation exist between the VA and the DOD. 
Toward that end, in addition to the military liaisons assigned to the 
program, the Warriors in Transition commanders at DDEAMC attend weekly 
team conferences where multi-disciplinary reviews are made of each 
Warrior's progress and treatment plans and goals are set. Also once a 
week, the ADRU medical staff attends orthopedic surgery rounds at 
DDEAMC to report back on progress being made by Warriors assigned to 
the ADRU and to review patients slated for transfer to the program.
    As of August 2007, a total of 1,037 active duty personnel have been 
treated in the ADRU, including 491 inpatients. Patients admitted to the 
ADRU included Warriors injured in OIF/OEF combat operations, training 
incidents, and other accidents. Twenty-five percent of the Warriors 
were treated for TBI. Most servicemembers are discharged back to an 
Army MTF, while 25 percent are returned to duty and 16 percent go on to 
be medically boarded. If upon discharge from the ADRU, it is determined 
a Warrior still requires intensive outpatient therapy and is not 
sufficiently recovered to be self-reliant, the Warrior is assigned to 
the Outpatient Care Unit (OCU) at the Augusta VAMC. This program allows 
the Warrior to be housed at the Augusta VAMC ensuring availability for 
treatment and preventing potential delays in care.
    I would like to briefly address our joint efforts to ensure the 
seamless transition of our Wounded Warriors. As these brave men and 
women return from theater, often with grievous injuries, it is 
paramount they and their loved ones receive the best care available. It 
is also essential that those Warriors no longer able to serve, 
seamlessly transition from active duty to veteran status without a 
lapse in benefits. To facilitate this transition, a VA Health and 
Benefits Advisor is embedded within DDEAMC. This individual meets with 
our Wounded Warriors to ensure they have a basic understanding of their 
entitlements under the VA system. Both DOD and VA have rich benefit 
programs for the active duty soldier and the veteran but significant 
disparities exist between these programs and the health benefits 
covered by TRICARE. We must ensure that no Family member is unable to 
visit and support their loved one as a result of the extensive out-of-
pocket expenses required by a system established on a reimbursement 
basis. We must ensure these costs are covered up front. A promise of 
reimbursement is worthless if the Family cannot afford to pay these 
initial expenses. The leadership and staff of the SERMC, VISN 7, 
DDEAMC, and the Augusta VAMC are working to make sure every Warrior and 
Family are taken care of, however, your support in making this policy 
change would make this task considerably less cumbersome and further 
reduce the frustrations of our Warriors and their Families.
    It should be recognized by this Committee that in 2005, VISN 7, the 
SERMC, and the Augusta VAMC were given the Olin Teague Award, the 
highest VA customer service award, in recognition of our unique and 
innovative operation of the ADRU in providing outstanding 
rehabilitation care to members of all the services.
    In the remainder of my comments I would like to focus on other 
resource sharing achievements between SERMC, VISN 7, DDEAMC, and the 
Augusta VAMC. Currently DOD and VA leadership meet on a regular basis 
both at the local and regional levels to monitor sharing activities, 
proliferate best business practices, and seek opportunities to partner 
and create efficiencies for providing health care services to VA and 
DOD beneficiaries. In March 2007, a new Master Sharing Agreement (MSA) 
and a new Outpatient Care Unit Agreement were implemented between the 
SERMC and VISN 7. The MSA provides an instrument for sharing health 
care resources between VISN 7 and SERMC facilities in instances where 
the need for sharing is either immediate, short-term or of 
insignificant volume to warrant a separate sharing agreement. The MSA 
also provides a detailed process for referrals, authorizations, 
reimbursement rates and resolution of issues that may arise between DOD 
and VA facilities. Examples of sharing instituted at SERMC and the 
Augusta VAMC under the agreement include imaging services, OB/GYN 
services, the sharing of intensive care unit beds, echocardiogram 
reading, and laboratory services.
    DDEAMC and the Augusta VAMC also cooperate in a number of joint 
endeavors designed to sustain the quality of health care for DOD and VA 
beneficiaries and maximize available resources. Let me briefly 
highlight three of our most significant and innovative sharing 
initiatives. The Coordinated Staffing and Recruitment Joint 
Demonstration Project began in 2004 with the purpose of exploring the 
use of the VA's hiring authority to recruit and retain critical 
medical, nursing, and ancillary staff to fill key shortages at both 
medical centers. The concept was to maximize the VA's ability to 
recruit and pay these critical staff under Title 38 authority, 
effectively minimizing the impact of deployments and military staffing 
shortages on the patient care provided by both organizations. The 
program has demonstrated successes in recruiting and retaining critical 
care nursing staff for the Augusta VAMC and DDEAMC and was essential in 
maintaining the viability of our DDEAMC/
Augusta VAMC Neurosurgery program. This program began in 1995 as a 
result of DDEAMC having two military neurosurgeons with a minimum of 
operating room slots available for performing neurosurgery cases. At 
that time, the Augusta VAMC possessed ample OR time but was paying 
significant dollars to contract for a part time neurosurgeon and was 
still referring many patients to the Atlanta VAMC. By locating DDEAMC 
surgeons and support staff at the Augusta VAMC and utilizing their 
surgical suites, support staff and inpatient wards, access to 
neurosurgical services was preserved for both DOD and VA beneficiaries. 
This enabled DOD provider readiness to be sustained at a significant 
reduction in cost to the taxpayer. In the fall of 2005, DDEAMC and the 
Augusta VAMC, in anticipation of losing their two military 
neurosurgeons, submitted a request for the approval of funds to support 
the hiring of two civilian neurosurgeons under the Coordinated Staffing 
and Recruitment Project. As stated previously, the approval of this 
proposal preserved neurosurgical services for both the Augusta VAMC and 
DDEAMC and identified numerous lessons learned in the sharing of joint 
recruitment and staffing processes. A final report is due to Congress 
later this year.
    The DDEAMC and Augusta VAMC Cardiothoracic Resource Sharing 
initiative is also a premier example of using combined resources to 
meet the medical needs of our beneficiaries. Under this agreement, 
DDEAMC performs cardiothoracic surgery on DOD and VA beneficiaries at 
DDEAMC. This provides necessary workload for DDEAMC's Graduate Medical 
Education (GME) programs, sustains the skills of our active duty 
surgeons, and reduces VA costs by minimizing their dependence on the 
private sector. The VA reimburses DDEAMC at DOD/VA discount rates which 
at present make this a win/win for both organizations. I would strongly 
recommend to this committee that the Congress re-look the current DOD/
VA guidance on mandated reimbursement rates for inpatient (DRG--10%) 
and outpatient (TMAC--10%) sharing between DOD and VA facilities. This 
reimbursement methodology no longer provides incentives for DOD and VA 
facilities to enter into sharing initiatives as this discount can be 
achieved through network providers without incurring any MTF resources 
to support the program.
    Health Care is local--and we (SERMC, DDEAMC, VISN and AVAMC) have 
ongoing collaborative meetings--monthly between AVAMC and DDEAMC, 
quarterly VISN and SERMC but more frequently at the staff level. This 
opens communication, ensures accountability and removes personality of 
leaders from the process. Request you encourage this communication 
through more flexible and consistent resource streams as well as 
consistency in recruiting and paying staff, advertising and benefits 
packages.

    I want to assure this Committee that the Army Medical Department's 
highest priority is caring for our Warriors and their Families. Thank 
you for holding this hearing and thank you for your continued support 
of the Army Medical Department and the Warriors that we are honored to 
serve.

    Senator Isakson. Thank you, General, for your testimony.
    Dr. Hollins, we just passed in the Senate the wounded 
warriors legislation. A part of that dealt with the subject you 
talked about, PTSD, and particularly with the referral of PTSD 
because PTSD is kind of one of those things, as I understand 
it, that can lay undiagnosed and then all of a sudden appear 
some time years later. Is that correct?
    Dr. Hollins. Yes, it is, Senator.
    Senator Isakson. Isn't it also correct that any number of 
specialists in the private sector, say an ophthalmologist, 
actually have the capability of detecting that and may be the 
first people to detect it after a soldier is in fact out of the 
military?
    Dr. Hollins. Yes, that is true.
    Senator Isakson. And my question is, if a soldier has gone 
to the ophthalmologist after he's out of the military--he 
fought in Desert Storm and he's been out a couple years--the 
ophthalmologist diagnoses that. Is there a referral back to VA 
for treatment on that, or how does that work?
    Dr. Hollins. For PTSD treatment?
    Senator Isakson. Yes.
    Dr. Hollins. Yes. Well, any veteran who comes to the VA 
could be referred to a PTSD program in the VA. This is 
something that the VA has done for many years.
    Senator Isakson. And you take those referrals out of the 
private sector if they in fact are already out of the military 
when it's diagnosed?
    Dr. Hollins. Certainly, yes.
    Senator Isakson. General Schoomaker, thank you for your 
humility. And I still give you a lot of credit, but I do 
realize what you said is true: that there's a terrific team 
here in Augusta. And you used the word visionary. Do you think 
what's happened here requires the visionary leadership at the 
local level up or is there a way we can maybe look to inspire 
some of that down? Because I know there have to be other cities 
and areas like Augusta where you have a major military 
installation and a major VA facility. Is there a way we could 
do that?
    General Schoomaker. Well, sir, I mean I'm going to be the 
ultimate compromiser and say it works both ways, I think. As 
you know, health care is a local event. Ironically, Don was the 
commander at Fort Benning where Specialist Capps was first 
returned to or deployed out of and where it was decided that he 
should be regionally managed by the Augusta VA Medical Center 
and Eisenhower.
    So, the first thing I would say is that on a local and 
regional basis I think we have to attend to what the demands 
are on local commanders and to include the local units that 
these soldiers come out of to best serve their needs and serve 
the needs of their families. And that really is best done as 
close, as we've heard, to where they live, where their home 
bases are, where their families have settled and where that 
soldier wants to go back into his or her unit.
    At the same time, I think that higher leadership needs to 
be in a position to allocate the resources and direct 
standardization and you've already attended to that with some 
of the questions directed to these soldiers. Local communities 
and even regional--regions can't be in a position of just open 
entrepreneurship of the program. There needs to be some 
standardization and allocation of resource to those places that 
do it well. And I think this notion that on a regional basis 
both for the VA and in this case the Army medical department--
for our regional medical commanders to allow us the latitude to 
build these relationships close to where we have our large Army 
medical centers is the best way. And I've spoken to my 
counterparts and Don's counterparts at the Great Plains 
Regional Medical Command in San Antonio and the Western 
Regional Medical Command centered in Fort Lewis and the Pacific 
at Tripler and my own up at Walter Reed. We all feel the same 
way, that building these relationships one-on-one with the VA 
close to our major hub medical centers and large community 
hospitals is certainly the way to go.
    Senator Isakson. Thank you, General.
    General Bradshaw, you used the term shared services. 
General Schoomaker used the term shared services. Dr. Hollins 
used the term shared services. In the testimony of Sergeant 
Morrissey, I think at one point he referred to being directed 
back and forth between Eisenhower and VA, depending on the 
specialty. And I think what he was referring to, he had 
multiple injuries and multiple specialties; and with the 
seamless handoff that you've had down here you're utilizing 
your assets at both facilities depending on what has the need. 
Is that correct?
    General Bradshaw. Yes, sir. We balance it, obviously 
focused on the patient--the soldier, sailor, airmen, Marines' 
needs--but also what our capacities are, because that changes 
day to day. How many ORs we have open, exactly what kind of 
specialists we have. I have a great hand surgeon but he 
deployed for 90 days so that we were dependent on other 
expertise, and we balance that back and forth, and that's the 
ongoing discussion that we have. That's the benefit of the 
close relationship and the ongoing interactions, routine 
meetings, and the comfort of our staffs to handle that. And 
it's not directed at high levels, but they do it on a daily 
basis. It's part of the reason we've put the case manager down 
here. It's part of the reason the C2 is down here and it's part 
of the reason that we have the joint meetings. Because patients 
don't go just from DOD to DVA; they go back and forth 
repeatedly, sometimes very close like this. Sometimes it's 
months in an active duty poly--I mean, VA polytrauma unit--and 
then they'll come back to our facility. So I think the 
relationship has got to be back and forth, not unidirectional; 
and that's key.
    Senator Isakson. General Schoomaker, one last question. 
Both you and General Bradshaw addressed the concern that 
Sergeant Morrissey raised with regard to entitlements and 
receiving information. You referred to the medical action plan. 
I think that's what you referred to where you were working on 
that. How old is that medical action plan? Is that something 
that's been recently done?
    General Schoomaker. Yes, sir. The Army medical action plan, 
sir, was launched in early March, not long after the initial 
Washington Post stories that addressed the problems at Walter 
Reed.
    I arrived at Walter Reed on March 3. My deputy, Mike 
Tucker, was--I selected him with the help of Vice Chief of 
Staff of the Army, General Cody, who has taken a personal and 
directive interest in this along with Secretary Geren. And that 
plan started on or about March 19.
    It is now 6 months or so into the plan. It's been very 
aggressively pursued. The Army as a whole has very aggressively 
embraced this because it involves multiple major commands of 
the Army, not just the Army medical department but the 
installation management command that builds barracks and 
supports ADA compliance for those barracks. It impacts the 
personnel community because of assignment of cadres to warrior 
transition units, which is what we now call the units that are 
clustered around. You heard one of the soldiers talk about his 
now having a squad leader and platoon leader. Those are warrior 
transition unit cadre that are assigned by the Army.
    So across the board, sir, this has been a very aggressive 
plan engaging the Congress at every step, so that they're aware 
through the House Armed Services and Senate Armed Services and 
the HAC and SAC to ensure that we are complying with their 
requirements that we fix the problems that we identified at 
Walter Reed; that it spreads across the Army as a whole and 
into the DOD; and it interfaces with our VA colleagues. Does 
that answer the question?
    Senator Isakson. Well, it does. And the reason I asked the 
question was for you to be able to say that, because I want to 
commend you and the Army and the entire team spreading the 
credit as it is deserved for responding to that need and have 
done so in a remarkable way. And just as these soldiers--their 
injuries were a while back when that was not in place. I think 
what you've done and what's been done with the medical action 
plan addresses probably the single most repeated concern that 
we've got, which you've heard today. And I appreciate very much 
your timeliness in getting that. And I think also some of that 
came from recommendations from the Dole-Shalala Commission 
Report, if I remember correctly.
    General Schoomaker. Yes, sir.
    Senator Isakson. So your responsiveness to that is 
appreciated and I thank you very much.
    General Schoomaker. Sure.
    Senator Isakson. I thank all our panelists.
    General Schoomaker. Yes, sir. I wonder if I might make one 
last pitch--
    Senator Isakson. Absolutely.
    General Schoomaker [continuing]. To follow on with one of 
the things that both Dr. Hollins and Dr. Bradshaw just 
discussed. And that has to do with this sharing of personnel 
but also the importance, as you heard Don describe, of 
maintaining a vibrant direct health care system within the 
military to maintain the readiness skills of our physicians, 
nurses, medics and the like. Now, you heard the fact that one 
of our most talented hand surgeons, Paul Cutting, was deployed 
in the middle of the treatment of one of these soldiers who had 
an upper extremity injury. It's not by chance, sir, that we are 
having the survival of battlefield wounds that you see today. 
Those surgeons and those critical care nurses that are in the 
air with the Air Force or on the ground in combat support 
hospitals, support surgical teams, sir, they maintain their 
medical readiness skills by working in Eisenhower and Walter 
Reed with folks every day on soldiers and sailors and airmen 
and Marines, their retiree population and their families. If we 
don't have that, sir, we're not going to continue to achieve 
the achievements that we have in combat.
    Senator Isakson. Well, since you said that, I'll close with 
a comment from one of my constituents. You had a young man, 
Specialist Pearson, who was in Walter Reed about 3 months ago 
who I went to visit. He's from Cobb County, Georgia, which is 
my hometown. When I go to Walter Reed I usually--I don't 
usually, I always--give the soldier my home number and ask him 
to be sure and call--in Washington and ask him to be sure and 
call me if he needs anything. And I get the number of his 
parents and I call his parents just to let them know I went to 
see him and if they need anything, since I'm in Washington and 
they're in Georgia, just to let me know. So I called Specialist 
Pearson's father that night and got him on the phone and said, 
``Listen, I went to see your son today. It looks like he's 
doing good.'' He had some very serious injuries and had been in 
the hospital 10 days at Reed from coming from Landstuhl. I 
said, ``He looks like he's doing good but I just wanted to let 
you know if there's anything I can do for you, just let me 
know.'' He said, well, there is something you can do for me. He 
said, please tell everybody that my wife and I have been up 
there the last 10 days and our son has never received better 
care than he's received at Walter Reed. So that's a testimony 
from a father of a wounded warrior in Cobb County who I 
happened to shake hands with about 3 months ago at Walter Reed. 
That's the best testimony of all of what you do. Thank you. 
[Applause.]
    While we're waiting on our last panel to come forward--for 
the record, for the staff--I want to, by unanimous consent, 
enter into the record the testimony of Dr. Rahn, President of 
the Medical College of Georgia. He could not be here today. And 
Mayor Copenhaver from Augusta, who, in his testimony, said 
Augusta used to be known for one week out of the year when the 
Masters was played, but now it's known for two things: the 
Masters; and for this great facility here that the VA and DOD 
have made together. So, I wanted you all to hear that. That's 
from the mayor's words himself.
    Our final two panelists, welcome to both of you for being 
here. Mr. Lawrence Biro--is that correct, Biro?
    Mr. Biro. Yes, sir.
    Senator Isakson. Network Director of the VA Southeast 
Network. And you are the VISN7 that everybody kept referring to 
in the previous testimony?
    Mr. Biro. That's right.
    Senator Isakson. And Dr. Michael Kilpatrick, Deputy 
Director of Force Health Protection and Readiness Programs, 
U.S. Department of Defense. Welcome to both of you. Mr. Biro, 
you'll be first.

       STATEMENT OF LAWRENCE A. BIRO, NETWORK DIRECTOR, 
                      VA SOUTHEAST NETWORK

    Mr. Biro. OK. Good morning, Senator Isakson and Congressman 
Broun and distinguished guests. Thank you for this opportunity 
to participate in this hearing on cooperative efforts between 
the Department of Defense and the Department of Veterans 
Affairs.
    I've submitted my written testimony and ask that it be 
included in the official record.
    Senator Isakson. Without objection.
    Mr. Biro. Network 7 consists of the States of Georgia, 
South Carolina, and Alabama through its eight medical centers 
and 27 community-based outpatient clinics. The network serves a 
veteran population of over 1.5 million in this area, of which 
300,000 are users of our health care system. Previous testimony 
has clearly presented the cooperative efforts between Augusta 
VA and the Eisenhower Army Medical Center. The active duty 
rehabilitation unit is our largest endeavor here in Augusta. 
These cooperative efforts in Augusta are the largest efforts 
within our network and account for approximately 75 percent of 
the cooperative arrangements in the network in terms of 
services purchased by the Department of Defense.
    In that these projects have been fully discussed in 
previous testimony, I will not discuss them again. Instead I'll 
elaborate and outline some other cooperative arrangements we 
have in VISN7. Second, I'd like to just briefly talk about our 
efforts we have underway to ensure that there is seamless 
transition for active duty--from active duty to veteran status 
for our newest veterans. Our other cooperative arrangements--
the authority for these cooperative arrangements are 38 U.S.C. 
8111 and we have several just up the road in Charleston, South 
Carolina. We're in the process of building a clinic in 
cooperation with the U.S. Navy, the Naval Weapons Station at 
Goose Creek. It's a $41 million project. We will be sharing 
staff there and obviously physical facilities and there will 
also be equipment sharing.
    There is the--it's been mentioned a couple of times--the 
joint incentive fund. This is a fund set up between the 
Department of Defense and the Department of Veterans Affairs to 
fund projects, and our Network has done very well. We've just 
been funded in Charleston for an MRI that will go into that 
clinic at Goose Creek. So that is one project. Just up the road 
is Columbia, South Carolina, where again there has been a 
longstanding relationship between Fort Jackson and the Dorn VA. 
Mr. Heckert, the director, is here today and he'd be glad to 
tell you more. We've just, again, been funded through that 
joint incentive fund to expand mental health services in a 
cooperative arrangement with the Moncrief Army Community 
Hospital and the Shaw Air Force Base clinic. And these will be 
the provision of mental health services, nonstandard hours, at 
Fort Jackson.
    In southeast Alabama, again, another joint incentive fund 
project where we are working with and will be locating our 
community-based outpatient clinic at Fort Rucker to expand our 
outpatient services and to complement the Army efforts there. 
We have additional arrangements at the Maxwell Air Force Base 
in Montgomery, Alabama, and several other military facilities. 
It's our policy to be constantly seeking cooperative 
arrangements with the military that will improve the quality 
and access for both active duty military and their families and 
veterans.
    Second, I just wanted to briefly talk to you on our 
seamless transition efforts. It's been mentioned that seamless 
transition requires flawless handoffs between the military and 
the Department of Veterans Affairs and I can assure you that 
every day we work on this in VISN7. To date 19,000 warriors 
from OEF/OIF and the global war on terror have enrolled in our 
Network; 16,000 are using our services.
    To these veterans and all the veterans in Network 7 we make 
three promises. The first is that the care that they receive in 
our network will be second to none and that's non-negotiable. 
It will be the best care and stand up to any comparison any 
place, any time. It's already been proven over and over again 
that the VA does provide the best care. It's been written up in 
the Washington Post to Newsweek, Business Week and through 
other research. So we make that promise. The care that you get 
from VISN7 will be second to none and it's non-negotiable.
    Second, that we will maintain and expand services. We've 
discussed this morning the services that are to be provided and 
we will provide them and we will continue to provide them to 
veterans here in this network. At least as long as I'm here, 
we'll never hear from me that we cannot provide what we need to 
provide. And we will continue to expand services where we need 
to.
    And third--and the most important--is that every veteran in 
this network who receives care from us will be personally 
satisfied on the care that they receive, based on the outcome. 
And I do mean personally satisfied.
    Senator, you might want to ask me, well, how can you say 
that? You just said you've got 1.5 million veterans and 300,000 
users. Let's just say I said it and I will stand behind it: 
that each and every veteran will be personally satisfied.
    As you visited Atlanta a couple of weeks ago we informed 
you of a couple of things that we're doing and I just wanted to 
mention here to we're reaching out to all those 19,000 OEF/OIF 
veterans. We have a plan and we're recontacting everybody and 
there's some interesting stories. I have to tell you one.
    The Dublin people were calling and with this modern 
technology that we've been talking about, they reached a 
veteran that had been redeployed. He called us back from Iraq 
and said, you know, if you're looking for me, I'm over here in 
Iraq. You know, I'll remember you when I get back.
    We found a veteran in Wilmington, Delaware, which is one of 
my former networks--my former network, and we helped reconnect 
that veteran to the Wilmington VA. So, first we're reaching out 
to find all those 19,000 veterans and make sure that we're 
doing what we need to do.
    The second thing that I mentioned to you just recently was 
that Secretary Nicholson had put transitional patient advocates 
out. We've hired nine of them. Our philosophy is to get them 
out in the field and they are out. They all have cars and 
they're going out and finding veterans--helping with the case 
management of the seriously injured and seriously ill. But 
they're also going out to make contact with other veterans in 
the most nontraditional ways that we can find. So we're working 
on that.
    So, our mantra always in this network is to help one 
veteran at a time and if we can help one veteran at a time, we 
can show that we've made a difference. We certainly are 
concerned--we've talked about numbers--but we're concerned with 
the one.
    So just in summary, the Southeast Veteran--Southeast 
Network has many cooperative efforts underway with the 
Department of Defense and we'll continue to look for additional 
opportunities. And again, we will continue to work with the 
Department of Defense to ensure that there's a seamless 
transition from active duty to veteran status. Again, thank you 
for the opportunity to speak to you.
    [The prepared statement of Mr. Biro follows:]
Prepared Statement of Lawrence A. Biro, Director, VA Southeast Network 
   (VISN 7), Veterans Health Administration, Department of Veterans 
                                Affairs
    Mr. Chairman, and Members of the Committee: Thank you for allowing 
me to appear before you today to discuss the Active Duty Rehabilitation 
Unit at the Augusta VA Medical Center (VAMC), operated by the Augusta 
VA Medical Center in partnership with the U.S. Army Southeast Regional 
Medical Command (SERMC). Veterans Integrated Service Network (VISN) 7 
serves the broad tri-state region of Georgia, Alabama and South 
Carolina, home to 1.5 million veterans.
    In October 2005, Secretary Nicholson presented the Augusta VAMC 
with the Olin ``Tiger'' Teague Award, the highest award recognized in 
VA. Secretary James Nicholson remarked that ``doctors, nurses, 
rehabilitation specialists and support staff, came together at the 
Augusta VAMC in what can only be described as a blessed partnership of 
caring, healing, and compassionate health care professionals.''
    I could not agree more, and it is a privilege to testify today on 
their behalf.
    The Augusta VAMC and the Eisenhower Army Medical Center (AMC) have 
a long history of partnering to provide exemplary care to veterans and 
servicemembers. In October 1993, the Augusta VAMC and Eisenhower AMC 
began sharing operations under a Joint Venture for Shared Services 
(JVSS) agreement approved at the highest levels of VA and DOD. This 
agreement allowed the facilities to share services with few 
restrictions. The joint venture also streamlined the process for 
establishing local agreements to meet the urgent needs of both 
facilities. VA and DOD created a joint neurosurgery program, and since 
that time, all neurosurgery services for veterans and servicemembers 
are provided at Augusta VAMC with the help of Department of the Army 
neurosurgeons.
    Over the past 15 years, VA and DOD have relied on the JVSS for a 
number of other business sharing and medical care agreements, including 
open heart surgery, imaging services (including mammography), 
gynecological/obstetric services, separation physical examinations, 
expansion of laboratory services, physical and occupational therapy, 
intensive care unit (ICU) beds, echocardiogram readings, and lodging 
for Eisenhower inpatient substance abuse programs, among others.
    The 2003 National Defense Authorization Act (NDAA) expanded VA/DOD 
health care resource sharing and coordination projects by including 
coordinated management operations in budget and financial management 
systems, coordinated personnel staffing, and interlinked medical 
information technology systems.
    Pursuant to this Act, the Augusta VAMC and Eisenhower AMC received 
funding for a national demonstration project in coordinated personnel 
staffing. The project focused on hiring registered nurses (RNs) for 
critical care and was later expanded to include neurosurgery. VA and 
DOD used approved funds from this project to hire two new neurosurgeons 
to continue the joint program. This project is due to expire at the end 
of Fiscal Year 2007, and Augusta VAMC and Eisenhower AMC officials are 
discussing how best to continue the neurosurgery program.
    In 2004, VA and DOD agreed to adopt a rate 10 percent below the 
CHAMPUS Maximum Allowance Charge for outpatient services provided by 
one Department to the other, in accordance with the 2003 NDAA. VISN 7 
and the SERMC established a blanket sharing agreement, which provided 
guidance to VA and DOD facilities on outpatient and inpatient care 
billing practices. Inpatient rates of exchange were based upon the 
interagency exchange rate or locally agreed upon rates to ensure 
coverage of facility costs. VA and DOD updated this agreement in FY 
2007.
    While all of these accomplishments are certainly noteworthy, our 
cooperation on treating the critical health care needs of military 
service personnel injured in Operations Enduring Freedom (OEF) and 
Iraqi Freedom (OIF) is truly our ``crown jewel.'' In 2003, VISN 7 and 
SERMC partnered to create the Augusta VAMC Active Duty Rehabilitation 
Unit, which provides rehabilitative care, including both Traumatic 
Brain Injury (TBI) and blast injuries, to Soldiers, Sailors, Airmen and 
Marines.
    The Active Duty Rehabilitation Unit represents the best of VA and 
DOD medical care, and represents the fulfillment of our promise to 
veterans and servicemembers.

    Mr. Chairman, this concludes my prepared remarks. I would like to 
request my written statement be submitted for the record, and I would 
be happy to answer any questions you may have.

    Senator Isakson. Thank you very much.
    Dr. Kilpatrick.

  STATEMENT OF MICHAEL E. KILPATRICK, M.D., DEPUTY DIRECTOR, 
 FORCE HEALTH PROTECTION AND READINESS PROGRAMS, DEPARTMENT OF 
                            DEFENSE

    Dr. Kilpatrick. Senator Isakson and distinguished guests, 
thank you for the opportunity to speak to you on behalf of the 
Assistant Secretary of Defense for Health Affairs regarding DOD 
and VA cooperation in providing health care for returning 
servicemembers and new veterans.
    It is fitting we are here in this active duty 
rehabilitation unit where soldiers, sailors, airmen and Marines 
and their families are receiving the quality care and support 
they need and deserve. The collaboration between VA and DOD 
that made this unit possible is just one example of the way our 
health care system can positively influence the lives of 
servicemembers and their families. The men and women being 
treated here and at DOD and VA facilities across this Nation 
have paid a substantial price protecting our way of life and we 
owe them nothing less than our best. As we continue to improve 
our two medical communities' cooperation and processes we must 
keep--always keep our focus on the patient and the family.
    Today I'd like to highlight some of the significant 
programs that DOD and VA put in place to provide world-class 
medical care. We have recently had many independent and 
internal groups evaluate DOD and VA's abilities to support and 
care for ill and injured servicemembers and veterans, 
culminating in nearly 400 recommendations. As those 
recommendations were being developed, the Secretary of Defense 
and the Secretary of Veterans Affairs chartered a senior 
oversight committee to systematically address treatment 
processes. That committee is collecting all recommendations, 
evaluating executability, breaking down the recommendations 
into actionable parts and associating those actionable parts 
with timelines and milestones, and establishing priorities to 
apply resources against them.
    The global war on terrorism poses a challenge to both 
departments as the severity and complexity of wounds and the 
requirements for long-term rehabilitative care for our combat 
veterans increase demands on our systems. But with the last 
several years the DOD and VA have made significant strides in 
coordinating and developing common health care and support 
services along the entire continuum of care. Forty-eight DOD 
and VA joint incentive fund projects are now underway or 
completed, covering such diverse areas of medical care as 
mental health counseling; web-based training for pharmacy 
technicians; cardiothoracic surgery; neurosurgery; and 
increased physical therapy services for both DOD and VA 
beneficiaries.
    Resource sharing is also helping us improve effectiveness 
and efficiency. Joint staffing is occurring at a number of 
Federal health facilities such as here at Eisenhower and at the 
Center for the Intrepid, a state-of-the-art facility in San 
Antonio, Texas. An Army liaison and VA polytrauma 
rehabilitation center collaboration program, often called Boots 
on the Ground, is designed to ensure the severely injured 
servicemembers who are transferred directly from military 
treatment facilities to one of the four VA polytrauma centers 
are met by a familiar face in a uniform. The VA has personnel 
at our medical facilities. There are VA social workers and 
counselors assigned to ten military treatment facilities, 
including here at Eisenhower. These social workers ensure the 
seamless transition of health care, including a comprehensive 
plan for treatment. As of June 29, 2007, the VA social worker 
liaisons had processed nearly 8,000 new patient transfers to 
the Veterans Health Administration, including 436 inpatient 
transfers.
    Our greatest mission is to honor our servicemembers by 
providing the best quality care and ensuring a compassionate, 
fair and timely disability adjudication process to enable them 
to return to the fullest, most productive and complete quality-
of-life possible. The satisfaction with medical care a 
servicemember has after becoming ill or injured in the combat 
theater will be the major success of cooperation between the 
Department of Defense and the Department of Veterans Affairs in 
providing facilities, treatment, rehabilitation and support for 
servicemembers and their families.
    I thank you again for the opportunity to share the 
cooperative efforts of the Department of Defense and the 
Department of Veterans Affairs. We look forward to continuing 
to work with your Committee as we make progress on these very 
important issues. Thank you.
    Senator Isakson. Thank you very much.
    Mr. Biro, I want to first of all acknowledge we are in the 
eastern central part of the State, but thank you and the 
department for the most recent announcement on the Rome clinic. 
The VA is continuing to expand their services in Georgia and 
with the Committee I've just reauthorized the $20.6 million, I 
think, for the hospital--redo of the hospital at Clairmont Road 
in Decatur, which I think illustrates our commitment to follow 
through on a request that you have made.
    You mentioned Charleston, Columbia, and Fort Jackson, South 
Carolina; the Alabama clinics at Fort Rucker and Maxwell Air 
Force Base. Were those all for DOD/VA collaborations?
    Mr. Biro. Yes, they are.
    Senator Isakson. Are they similar to what's been done here 
in Augusta?
    Mr. Biro. This here in Augusta is unique. It's inpatient. 
There--that's why there's 75 percent of the effort here. But 
over $7-$8 million that's virtually all inpatient. The other 
efforts are outpatient facilities.
    Senator Isakson. The point you made about 19,000 veterans 
of Operations Iraqi Freedom and Enduring Freedom are both in 
this region. And that region is just Georgia, South Carolina 
and Alabama. Is that right?
    Mr. Biro. Right. And that's the number that are enrolled.
    Senator Isakson. That's the number that are enrolled. 
16,000 are being treated?
    Mr. Biro. Treated, yes.
    Senator Isakson. You made a comment about VA health care 
and I want everybody to recognize your comment wasn't just home 
team bragging because Time magazine referred to VA health care 
as the gold standard, particularly the use of information 
technology in medicine, which is being done at the VA. So I 
commend you on what you are doing.
    Dr. Kilpatrick, you're employed by the Department of 
Defense?
    Dr. Kilpatrick. That's correct.
    Senator Isakson. And Mr. Biro is employed by the Veterans 
Administration; is that correct? Well, you all are--
    Mr. Biro. That's correct.
    Senator Isakson [continuing]. A pretty good example of 
seamless coordination testifying together, I'll certainly 
testify to that.
    And the secretary--the previous Secretary of the Armed 
Services went through transformation--or the military was going 
through transformation. In fact, we were going through it when 
we ended up being attacked on September 11, 2001, and have been 
going through it while we've had our folks deployed around the 
world. Are the many things that you mentioned for efforts for 
joint sharing services. Is that a part of transformation?
    Dr. Kilpatrick. I definitely think it is because we are 
looking at what are today's needs. We have to get the sense of 
looking at that at the ground level. How do you meet those 
needs in the most efficient, effective manner. Being good 
stewards of taxpayer dollars, looking to make sure that the 
quality of care is not anywhere fenced because of dollars to 
make sure that people get the care they need when they need it. 
And I think that--you heard from earlier panels--that care is a 
local issue. The best solutions are at a local level but it has 
to be standardized centrally and it has to be certainly funded 
and supported from a central area. And I think that's what the 
ongoing transformation is today, particularly as DOD and VA are 
working closer together than they ever have in the past. Having 
said that, there's still opportunity for continued coordination 
and cooperation.
    Senator Isakson. On that point you referred in your 
testimony to disability adjudication. That is, of course, of 
tremendous importance on issues like concurrent procedure. What 
the military ends up deciding as the adjudication of a 
disability has a tremendous impact on that veteran's life in 
the future. How fast or how--fast is not the right word. How 
timely is that adjudication taking place?
    Dr. Kilpatrick. Well, I think right now today that 
adjudication is taking too long. I think we've heard that from 
servicemembers. We've heard that from veterans. The whole 
claims process within the VA is a very time-consuming issue. I 
think that people are looking at re-engineering, if you will, 
or transforming that process at the VA and DOD levels. At the 
very top level they're looking at how to start with a clean 
sheet of paper. What is in the best interest of the individual 
to make that determination.
    General Schoomaker said many of our severely injured men 
and women in uniform want to stay in uniform and we've made a 
commitment that if they're able to get back and perform in a 
job skill set that's required by the Department of Defense, 
they will be allowed to stay in uniform. And so we don't want 
to rush prematurely to say you have a severe injury and you're 
no longer part of the Department of Defense. So timing, I 
think, is a critical issue on that. But I think for people to 
know and understand what their options are, because it is an 
all-volunteer force and I think that if they are continuing to 
want to volunteer to stay, they need to know what the options 
are if they don't. I think that's what we heard from the two 
soldiers earlier; that they didn't know and they couldn't find 
somebody who knew. That's a process that we need to make 
simpler and we need to streamline and we need to make it 
logical and seamless.
    Senator Isakson. And am I not correct that one of the 
difficulties in that assessment, again, are injuries, 
particularly relevant to what's going on in Iraq, in terms of 
Traumatic Brain Injury or mental affects? PTSD, I guess, too, 
in its entirety. You could actually adjudicate a disability 
that's physical and years later have another disability that's 
mental crop up; is that not correct?
    Dr. Kilpatrick. That's absolutely correct. And if you 
adjudicate something today and somebody recovers later on, do 
we start to reverse issues? And I think those are some of the 
real problems in trying to get it right and not necessarily get 
it fast. So there has to be the right amount of time taken.
    I think that as it occurred before, trying to associate 
illnesses 20-30-50 years from now to military service is always 
going to be difficult. Medical science is not always able to 
help somebody. Why you have that cancer or why you have 
diabetes, and to say that there's a point source or a point 
exposure that caused that, medical science is not able to do 
that for servicemembers. And I think that's one of the concerns 
of so many men and women in uniform--will the VA be there for 
that problem that I have later on in life that I believe is due 
to my military service. And that's a hard issue in that for the 
disability problem. It becomes very difficult.
    Senator Isakson. Those are the tough calls, but those are 
tough calls in workers' compensation in the private sector, 
too, what actually is the cause of the problem. But I want to 
thank you for your attention and I appreciate you mentioning 
that. Although that wasn't necessarily a subject of this 
hearing, it's one of the things I hear the most about out there 
from the constituents that I serve.
    Thanks to both of you for your testimony. Before you get up 
I want to close the hearing, so you all just stay put and then 
we can all get up together.
    I want to thank any number of people. I want to first of 
all thank this facility for all their accommodation. They've 
been fantastic. I want to thank Congressman Doug Barnard for 
his friendship and for his advocacy on behalf of Augusta-
Richmond County and in particular our wounded warriors. He's 
done a fantastic job and it's greatly appreciated.
    For those of you in the military--General Schoomaker, I 
think you'd like to know what kind of a community you're in. 
This is a little brochure that is supplied by the American 
Pride Through Education Incorporated Act. This is a group of 
local citizens that take the month of November to teach our 
kids about pride in America and about our Armed Services and 
about the great legacy that our country has. Jane Alexander's 
here today and she has supplied me with a sample of each one of 
those for you all when you leave.
    But thanks very much to the VA. Thanks to DOD. Thanks to 
the people of Augusta and our distinguished elected officials 
that are here. And as I began, I'd like to, again, say thanks 
to the most important people of all here today and that's the 
men and women who serve or have served the United States of 
America in harm's way. This is a great country that has been 
blessed by God, and because of all of you we're allowed to 
assemble freely today in peace. God bless you.
    [Applause.]
    [Hearing concludes at 11:30 a.m.]
                            A P P E N D I X

                              ----------                              


                                       Office of the Mayor,
                                      Augusta, GA, August 23, 2007.
Hon. Johnny Isakson,
U.S. Senator from Georgia,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Senator Isakson and other distinguished Members of the Committee: 
Welcome to the city of Augusta. While our community is well-known one 
week a year for the world's most prestigious golf tournament, year-
round we are committed and dedicated to serving our Nation's men and 
women in uniform.
    Augusta is home to a well-kept secret, though by your presence here 
today, I suspect it will be a secret no more. Since 2005, Augusta's 
Uptown VA Medical Center has been home to the Nation's only Active Duty 
Rehabilitation Unit within a VA facility. This collaboration between 
the Department of Defense and the VA is not only unique because it is 
the only one of its kind. It is also unique because it alone is poised 
to take on more missions to better serve America's wounded warriors.
    To date, more than 421 wounded warriors have been treated at the 
ADRU, with 26 percent of them returning to Active Duty. The ADRU is not 
just a place where wounded troops come for healing. It is also a place 
where they come to be returned to their full capacities as productive 
members of our society. The facility was constructed with 60 beds for 
in-patient care, and 30 of those beds are currently staffed and funded. 
Our community stands at the ready to see the other 30 beds fully funded 
so that we might extend the gold standard of care to more wounded 
warriors who so richly deserve the best.
    Should Tiger Woods get hurt and require rehabilitation, he'd find 
no finer medical care than is offered here at the Uptown VA ADRU. The 
success stories are numerous, but one recent example is worth citing.
    Specialist Crystal Davis lost her leg in an IED blast in Ramadi 
Iraq in 2005. She was sent to Walter Reed AMC, and underwent dozens of 
surgeries. After her surgeries, she underwent physical therapy there. 
She noticed something when she came home for visits to her family in 
Camden, South Carolina. She noticed she would get better. When she went 
back to Walter Reed for care, she was disappointed to only receive one 
PT appointment a day. She reported there were delays for her getting 
the care she needed to learn to walk on her prosthetic. She was 
transferred to Augusta and the ADRU, and within 3 weeks was off her 
walker and on her prosthetic full time. She credits the ADRU, the level 
of care she received as an in-patient here, and being close to family 
as major factors in her recovery.
    Spc. Davis is not the only success story from the ADRU, but her 
example shows how much better our wounded warriors heal when they are 
close to home. Also of importance is the fact that 70% of the returning 
troops from OEF and OIF are from the southeastern United States. We owe 
it to our wounded warriors to help them heal as close to home as we can 
get them. We respectfully submit Augusta, Georgia, is centrally located 
to help them do just that.
    Augusta is also home to Fort Gordon and the Dwight D. Eisenhower 
Army Medical Center, the Army's southeast medical command. The DDEAMC 
is the number two recipient of evacuees from the war, second only to 
Walter Reed. Medical College of Georgia residents currently do 
psychiatric rounds at both Eisenhower and the VA. With the existing 
collaborative efforts between the Medical College of Georgia and both 
Eisenhower and the VA medical facilities, Augusta stands uniquely 
qualified and equipped with the resources necessary to provide the 
physical, emotional, and mental needs of wounded warriors.
    In addition, Augusta has 4 major medical facilities (University, 
MCG, Doctors Hospital and Trinity Hospital) within 11 miles of 
Eisenhower and both VA facilities. Walton Rehabilitation Hospital also 
specializes in returning TBI (traumatic brain injured) patients to as 
normal a life as possible. Walton Rehabilitation Hospital is also the 
recipient of numerous HUD grants providing low-cost housing for those 
who are becoming independent after brain injuries, something now known 
as the ``signature injury'' in the conflicts in Iraq and Afghanistan.
    Also, as you may know, Augusta was recently named the number one 
affordable housing market in the Nation. The low cost of housing, the 
Fisher House on Fort Gordon (housing for seven families), and the 
strong employment market in Augusta all combine to offer wounded 
warriors and their families not just a place to heal, but a place to 
live and thrive while they heal.
    Augusta, Georgia stands at the ready to answer the Nation's call to 
better serve the wounded warrior. We are currently collaborating in a 
community-wide effort known as the Wounded Warrior Care Project, lead 
by The Honorable Doug Barnard and others to expand Augusta's capacities 
to care for the wounded warrior, while mindful of the importance of 
transportation, housing, and vocational training, in addition to the 
physical and emotional aspects of healing wounded warriors.
            Sincerely,
                                           Deke Copenhaver,
                                                             Mayor.
                                 ______
                                 
   Prepared Statement of Wounded Warriors and the Medical College of 
 Georgia President Daniel W. Rahn's Comments on How the State's Health 
   Sciences University Can Enhance Care for the Nation's Armed Forces
    The Medical College of Georgia is one of more than 100 academic 
health centers nationwide. Academic health centers stand at the 
forefront of patient care, biomedical research, and health professions 
education and are thus uniquely equipped to serve as leaders of 
change--both identifying and implementing solutions to the Nation's 
most vexing health care challenges.
    In its recently approved Public Policy Agenda, the Association for 
Academic Health Centers noted that ``perhaps more than ever before, 
academic health centers collectively must take center stage and be 
promoted with ideas that energize and convince all stakeholders to 
pursue an agenda that merges academic health center goals with those of 
the Nation.'' Care for our Nation's wounded warriors provides one such 
opportunity.
    While the United States Department of Defense and Department of 
Veterans Affairs bear primary responsibility for the care of active 
duty military personnel and veterans, the complexity and volume of care 
needed, particularly during wartime, necessitates leveraging all 
available resources, including the health care services available in 
the civilian health care sector.
    The environment for health care policy in this country is deeply 
rooted in the national history of the United States and our core values 
of entrepreneurialism, rugged individualism, and self-reliance. 
Innovation, productivity through competition, individual opportunity 
these are all national strengths borne out of our history. We must work 
together to ensure that the weaknesses that may be associated with 
those strengths--such as partisanship, decentralization, diffused, 
segmented, and diluted authority--don't stand in the way of creating a 
true system of care for the men and women injured while serving our 
country.
    MCG currently has strong affiliations with Eisenhower Army Medical 
Center and the Veterans Affair Medical Center located in Augusta. These 
could be further leveraged to improve support to our Nation's wounded 
warriors. For example, the MCG-VAMC Psychology Consortium is one of 
only 20 federally funded psychology programs in the Nation. The MCG-
VAMC has an enduring track record of producing psychologists who pursue 
careers that are directed toward integrated approaches to health care. 
Expansion of this training program and utilization of these graduates 
could help to ensure high quality and highly integrated care throughout 
patients' journeys to recovery. Additionally, MCG's departments of 
neurology, neurosurgery, and psychiatry and health behavior bring 
significant clinical resources to the table--expertise and 
infrastructure that could be accessed to fill gaps in the existing 
system of care for America's wounded warriors, particularly as it 
related to posttraumatic stress and Traumatic Brain Injuries.
    The July 2007 Report of the President's Commission on Care for 
America's Returning Wounded Warriors contains six recommendations that 
``will produce a patient-centered system that fosters high-quality 
care, increases access to needed care and programs, promotes 
efficiency, supports families, and facilitates the work of the 
thousands of dedicated individuals who provide a gamut of health care 
and disability programs to injured servicemembers and veterans.'' The 
perspective I share in this document with the U.S. Senate Committee on 
Veterans' Affairs is viewed through the lens of patient- and family-
centered care--an area for which the Medical College of Georgia and the 
MCG Health System have been lauded nationally. We know very well the 
power of involving families in the treatment and recovery of patients 
and would be honored to assist in a regional and cross-sector approach 
to care for wounded warriors returning to their homes in Georgia and 
across the southeast.
    MCG also strongly supports the commission's recommendation 
regarding the development of comprehensive patient- and family-centered 
recovery plans. As noted in the commission's report, recovery plans 
should smoothly and seamlessly guide and support servicemembers through 
medical care, rehabilitation, and disability programs. Recovery 
coordinators would drive the implementation of these plans. Educational 
preparation, recruitment, and retention of appropriately qualified 
individuals to serve as coordinators will be critical to the successful 
implementation of this recommendation.
    MCG's various health professions schools would be honored to take a 
leadership role in the educational preparation of recovery 
coordinators. For example, MCG recently launched a new graduate nursing 
program for the education and training of Clinical Nurse Leaders. The 
10th such program developed in the Nation, MCG's CNL program prepares 
nurses to be clinical leaders who can thrive in the current health care 
system while improving patient outcomes and reducing costs. We are 
committed to preparing leaders who facilitate and assure 
individualized, evidence-based, and highly effective care to patients 
and families. I encourage this committee to consider the role these 
highly trained clinical leaders could play in ensuring continuity of 
care through the implementation and long-term oversight of recovery 
plans for wounded warriors.
    My intent in this testimony is not to provide a laundry list of MCG 
educational, clinical, and research strengths--for they are many--but 
to emphasize the importance of innovative thinking, cross-sector 
collaboration, and bold approaches to care. MCG does indeed possess 
significant strength and resources that could be leveraged as the 
Federal Government works to implement the recommendations outlined in 
the commission's final report. We would very much like to be included 
in a consortium that inventories regional resources and works to 
connect them to effect better health outcomes for wounded warriors and 
better support for their families.
    Thank you for the opportunity to provide input into your 
deliberations. I applaud the good work of the President's commission. 
The recommendations put forth in the final report, if appropriately 
operationalized, will significantly enhance the quality of care 
provided to America's wounded warriors. Please know that the Medical 
College of Georgia is prepared to stand shoulder to shoulder with our 
Federal partners to serve those injured in the line of duty, support 
their recovery, and simplify the complex systems through which they 
access their care.
  

                                  <all>

</pre></body></html>
